<html>
<title> - OVERSIGHT HEARING ON IMPLEMENTATION OF CORPS OF ENGINEERS WATER RESOURCES POLICIES</title>
<body><pre>[Senate Hearing 113-697]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-697
 
                OVERSIGHT HEARING ON IMPLEMENTATION OF  
                  CORPS OF ENGINEERS WATER RESOURCES 
                  POLICIES

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2013

                               __________
                               
                               
                               
 Printed for the use of the Committee on Environment and Public Works
 
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://www.gpo.gov/fdsys

                               __________


                     U.S. GOVERNMENT PUBLISHING OFFICE
93-391 PDF               WASHINGTON : 2015                   
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  
               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JAMES M. INHOFE, Oklahoma
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     ROGER WICKER, Mississippi
TOM UDALL, New Mexico                JOHN BOOZMAN, Arkansas
JEFF MERKLEY, Oregon                 DEB FISCHER, Nebraska
KIRSTEN GILLIBRAND, New York

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director

                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 7, 2013
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, David, U.S. Senator from the State of Louisiana..........     3
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     6
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York     7
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     8
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    10
Boozman, Hon. John, U.S. Senator from the State of Arkansas......    12
Baucus, Hon. Max, U.S. Senator from the State of Montana.........    12
Udall, Hon. Tom, U.S. Senator from the State of New Mexico, 
  prepared statement.............................................    58
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    59

                               WITNESSES

Darcy, Hon. Jo-Ellen, Assistant Secretary of the Army, Civil 
  Works; accompanied by: Lieutenant General Thomas P. Bostick, 
  Commanding General and Chief of Engineers, U.S. Army Corps of 
  Engineers......................................................    15
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Boxer............................................    24
        Senator Baucus...........................................    27
        Senator Cardin...........................................    29
        Senator Udall............................................    32
        Senator Gillibrand.......................................    34
        Senator Vitter...........................................    35
        Senator Wicker...........................................    43
Johnson, Richard M., Executive Director, Sacramento Area Flood 
  Control Agency.................................................    91
    Prepared statement...........................................    93
    Response to additional questions from Senator Boxer..........    99
Turner, Richard A., P.E., CFM, Regional Director, Southeast 
  Louisiana Flood Protection Authority...........................   104
    Prepared statement...........................................   106
    Responses to additional questions from Senator Boxer.........   111
O'Mara, Collin, Secretary, Delaware Department of Natural 
  Resources and Environmental Control............................   114
    Prepared statement...........................................   117
    Responses to additional questions from Senator Boxer.........   122
Graves, Garret, Chair, Coastal Protection and Restoration 
  Authority of Louisiana.........................................   126
    Prepared statement...........................................   129

                          ADDITIONAL MATERIAL

Statement of the American Shore & Beach Preservation Association.   143


    OVERSIGHT HEARING ON IMPLEMENTATION OF CORPS OF ENGINEERS WATER 
                           RESOURCES POLICIES

                       THURSDAY, FEBRUARY 7, 2013

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Vitter, Cardin, Gillibrand, 
Carper, Baucus, Whitehouse, Lautenberg, Fischer, Wicker, and 
Boozman.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, and welcome, everybody. 
Welcome, our new member, Senator Fischer. We are thrilled that 
you are here.
    And I have to say, this is a very important day, starting 
with a very important hearing. But at 1:30, I have to admit, 
Senator Cardin and Senator Mikulski are going to be receiving a 
massive gift from Senator Feinstein and I regarding the Super 
Bowl. We are not going to say much more about it now, we are 
not.
    Senator Cardin. Senator Boxer, I just really want to thank 
you for your generosity. You are being so kind, I might ask 
Senator Vitter not to hold that investigation on the power 
outage that I was going to ask him to do.
    Senator Vitter. Madam Chair, I was just going to say, it 
could be worse. You could be a Saints fan.
    [Laughter.]
    Senator Boxer. Well, I was worried that the cameras would 
catch me climbing up the electric pole.
    [Laughter.]
    Senator Boxer. But fortunately for me, they were focused on 
some of the players.
    But Senator Cardin, you know I am a good loser.
    Senator Cardin. I had never noticed that about you.
    [Laughter.]
    Senator Boxer. I was about to check with Senator Vitter to 
see if he would mind if I took away your subcommittee 
chairmanship. But I decided you are just too good in the job.
    Anyway, we will have more fun with that.
    Today we continue this committee's oversight of the Army 
Corps of Engineers by looking at its water resources policies 
and how they impact our communities. The Corps' flood control 
projects keep our families safe, provide enormous economic 
benefits. The Corps has also contributed to the construction of 
over 14,000 miles of levees across this Nation, and the Corps 
estimates that its flood protection efforts prevent $37 billion 
annually in damages.
    The testimony we hear today will help us as we move forward 
with the next WRDA bill, the Water Resources Development Act, 
which authorizes the Corps' projects and programs. The 
devastation caused by Superstorm Sandy last year has placed the 
spotlight on the need to ensure that communities have critical 
flood protection, which is one of the primary goals of the WRDA 
bill.
    Sandy and other extreme weather events in recent years have 
resulted in the loss of lives, caused billions of dollars of 
damages and wiped out entire communities. And no one knows that 
better than the gentleman sitting next to me, my Ranking 
Member, Senator Vitter.
    We have proposed a new title for the WRDA bill that will 
enable the Corps to help communities better prepare for and 
reduce the risks of extreme weather-related disasters, 
including severe flooding. There are other goals we want to 
accomplish in WRDA that will help many local governments, 
including those in my home State of California.
    Our draft WRDA bill includes a provision that will allow 
the Corps to consider regional differences and work with State 
and local governments to develop the most appropriate approach 
for managing levee vegetation. This may seem like a small 
matter, but it is a big matter. In California, vegetation not 
only provides stability for many levees, it also offers the 
last remaining habitat for some species, such as salmon.
    After evaluating its levees and identifying critical 
maintenance and repair needs, California has rightly 
prioritized its projects to address the most pressing problems 
first. The Corps has begun working with California and other 
States to consider regional approaches to vegetation 
management. The Corps has also stated that it will allow local 
officials to address the worst problems first.
    I am encouraged by this progress, I say to you, Hon. Jo-
Ellen Darcy, I am encouraged by this. You are allowing greater 
flexibility and I believe we must make this localized approach 
to vegetation management permanent.
    Another issue we must address in the WRDA bill is the 
Corps' policy for providing credit for work carried out by non-
Federal sponsors of Corps projects. In California, State and 
local governments are bringing billions of dollars to the table 
to improve flood protection. Unfortunately, the Corps' 
crediting policies may be discouraging local investments. State 
and local participation is vital. That is why I have worked 
with Assistant Secretary Darcy to give non-Federal sponsors 
more flexibility.
    I appreciate the commitment she has already made to 
consider exceptions that would allow non-Federal sponsors to 
proceed with work ahead of the Corps, if it will improve public 
safety or provide other benefits. This type of flexibility is 
something we should make permanent as part of the next WRDA 
bill.
    So I look forward to working with my colleagues and with 
the Corps on these and other important issues that will be 
raised today. This hearing will help us tremendously. I want to 
give great credit to Senator Vitter for asking for this 
hearing. I think we will identify ways to improve the Corps' 
policies and practices in the next WRDA bill.
    Senator Vitter and I will work with our colleagues on both 
sides of the aisle to hear their concerns. I appreciate 
everyone's participation in today's hearing. With that, I call 
on my Ranking Member.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair. Thank you for this 
hearing, which you graciously organized as soon as I requested 
it. And thank you for your leadership and partnership on water 
resources.
    I think this hearing is another clear, bold statement that 
this entire committee, in a very bipartisan way, is committed 
to a new WRDA bill. And we are well into the concrete work of 
that bill on a true bipartisan basis. So we are going to do it 
in the near future, and it is because of your leadership, Madam 
Chair. Thank you very much for that. This hearing is an 
important step toward that.
    But of course, any bill, including any WRDA bill, is only 
as good as its implementation. And that is what I wanted to 
focus on the most in this hearing, looking back to the 2007 
WRDA, discussing what I consider real and serious 
implementation problems and frustrations, so that we solve them 
for the 2013 WRDA.
    I certainly share the Chair's concerns about all the issues 
she mentioned, and I will bring up some more. First of all, 
some very basic ones, things that are clearly mandated in the 
2007 WRDA with the word ``shall'` with a crystal clear, non-
discretionary mandate that the Corps has simply ignored. Many 
other cases where deadlines have slipped significantly on a 
routine basis, causing us to miss important deadlines, even 
including a loss of authorization of some projects.
    Post-Katrina engineering and design guidelines, everyone 
wants to learn the lessons of Katrina. Everyone wants to 
strengthen engineering and design guidelines in an appropriate 
way. I fear, though, that in some cases the new guidelines are 
really put together with the thought, if unspoken, that the 
safest levee is one that never gets built. Some of these 
guidelines have priced protection completely off the map. And a 
levee that isn't built, of course, can't breach. But it also 
provides no protection.
    The levee vegetation issue that the Chair mentioned, I 
certainly share in that. We need a flexible, localized response 
to that, so that we do it right. The new introduction of the 
Modified Charleston Method in the New Orleans district is very 
troublesome and inconsistent with what many other districts do. 
And the great curtailed lock hours of operation we have seen in 
Louisiana around the year are also troublesome. So we'll 
hopefully get to all of these and other important matters that 
the members care about.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much, Senator.
    Senator Cardin.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Thank you, Madam Chair. Let me thank you 
and thank Senator Vitter for your working together to get us a 
WRDA bill. I think that is extremely important.
    We had a hearing last week as to how important WRDA 
reauthorization will be for jobs in our community. For the Port 
of Baltimore, which is the ninth busiest commercial port, it is 
thousands of jobs that are involved. Getting the WRDA bill done 
will help save and create jobs in my community.
    Last week I pointed out that between 2004 and 2019 on the 
Harbor Maintenance Trust Fund, the Baltimore Port contributes 
$228 million and we receive back $155 million. So we need to do 
a more aggressive job in keeping our ports competitive. I 
mentioned the fact that when you have to load ships at less 
than capacity because of the maintenance of the channels, we 
are not going to be as competitive as we need to be in the 
global economy.
    Now, I want to talk about a couple of issues that are 
directly related to the Assistant Secretary of the Army, and to 
the Army Corps, dealing with how we are going to be handling 
dredged material, particularly in the Port of Baltimore. In the 
1996 WRDA Authorization Bill, we authorized Poplar Island, 
which was a barrier island that almost disappeared in the 
Chesapeake Bay. That project allowed for dredged material, not 
only a place where we could dispose of it, but it also became a 
plus on the environment, by restoring an environmental area.
    In 2007, we authorized the next phase of Poplar Island. So 
as I look at the WRDA bill, we have to handle extending the 
WRDA Section 902 cost limit authority for projects like Poplar 
Island. The 2013 WRDA bill will have a major impact on the 
long-term success and utility of these projects.
    The Corps and the State have worked successfully over the 
years to redevelop the barrier islands that have historically 
been present in the Chesapeake Bay, using dredged material from 
the harbor and elsewhere. As the constructed islands reach 
their design capacity, the State and Corps need to work to 
close these facilities and move on to the next disposal sites.
    The Baltimore Corps District is revising its dredged 
material management plan to reflect the closure of Hart-Miller 
Island. Cox Creek will replace Hart-Miller Island as a disposal 
site for the dredged material in the plan for the Baltimore 
dredging projects. I am pleased that the discussions between 
the Baltimore Corps and the State are resulting in a mutually 
agreed-to solution.
    Let me also mention Pierce Creek, which is a disposal site 
that is to be reopened, but has to be done in a remedial work 
for the community is sensitive to the environmental concerns. I 
do have concerns that we are using an old study that involved 
one community. I would expect, and I will be watching to make 
sure that the remedial work involves all the communities that 
are at risk, that could be at risk with the re-opening of the 
Pierce Creek facility.
    Another major set of concerns are the accumulated sediment 
and nutrients behind the Conowingo Dam, and the impact these 
pollutants are having on the Chesapeake Bay water quality. In 
December, I wrote a letter, with several of my Bay State 
Senator colleagues, to the Assistant Secretary, urging the 
completion of the long-overdue Lower Susquehanna Watershed 
Assessment. This study is designed to examine the loads of 
pollutants accumulated behind the Conowingo Dam. The completion 
of this study is imperative to informing any remedial action 
that may be necessary to improve the health of the Chesapeake 
Bay.
    Now, I understand the Corps may not be directed involved in 
the work to remediate the accumulated contaminants behind the 
dam, but I think the findings and the ongoing assessment could 
be very informative on the upcoming FERC relicensing process.
    Then last, let me just than the Corps for the work that you 
do in the restorations in the Chesapeake Bay, the shoreline 
protection, the sediment management, oyster and habitat 
restoration programs. These are absolutely critical to the 
health of the Chesapeake Bay. The Corps has been very active in 
this. It is not only an important cash crop for our watermen, 
it is also an important environmental crop for how it filters 
the pollutants in the Bay itself.
    Madam Chair, I really do look forward to this hearing. I 
look forward to working with you and the Ranking Member, so 
that we can carry out our responsibly and pass, I hope in a 
timely fashion, the Water Reauthorization Act.
    [The prepared statement of Senator Cardin follows:]

                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland

    Madam Chairman, I appreciate you holding this hearing today 
to discuss the Army Corps' Civil Works' water resources 
programs. It goes without saying that these programs are 
incredibly important to Maryland's economy and the health of 
the Chesapeake Bay.
    I am very pleased that our committee is not wasting any 
time in working on reauthorizing the Water Resources 
Development Act. This hearing, as well as last week's hearing, 
certainly helps advance progress on the reauthorization 
process.
    The high quality jobs associated with maintaining and 
building our waterways infrastructure makes reauthorizing WRDA 
all the more important.
    The 2007 WRDA received overwhelming bi-partisan support 
from this committee. The projects that bill supported provided 
critical employment opportunities at a time when the Nation was 
beginning to face uncertain economic times. Now, we've come 
back from the brink of economic catastrophe and reauthorizing 
WRDA this year helps keep our economy on the right course.
    WRDA projects are critically important to the U.S. economy. 
According to the Research and Innovative Technology 
Administration, 1 in every 11 shipping containers engaged in 
global trade is either bound for or originates from a U.S. 
port.
    The Port of Baltimore is ranked ninth among all U.S. 
commercial ports, in terms of total value of goods moved 
through the port. In July 2012, the Port of Baltimore handled a 
record 853,818 tons of general cargo. The Port of Baltimore 
handles the most ``roll on/roll off'' cargo, like cars and 
trucks, as well as the most ore, sugar and gypsum than any port 
in the United States.
    The Port of Baltimore also directly employs more than 1,000 
workers while supporting thousands more across Maryland. These 
jobs and the movement of the valuable cargo coming in and out 
of the port would not be realized if it weren't for the Army 
Corps' work to maintain the Baltimore Harbor Channel.
    That's not to say more work is not needed. My statement 
from last week's hearing explained the backlog of work that is 
needed at the Baltimore Harbor. I also discussed my concerns 
with the inequity in how Harbor Maintenance Trust Fund dollars 
are distributed. Between 2004 and 2010, the Port of Baltimore 
generated approximately $228 million in Harbor Maintenance 
Trust Fund revenues, yet during that same period the Port of 
Baltimore only received $154.7 million for dredging.
    The extensive work that is done to maintain Maryland's 
shipping channels generates a great deal of dredge material 
that needs to be disposed of in a safe and responsible manner.
    A great project that exemplifies a critical dredge material 
disposal site that also represents an important ecological 
restoration project is the reestablishment of Poplar Island. 
Prior to the restoration project, Poplar Island had washed away 
to less than 5 percent of its historical landmass. The first 
phase of the Poplar Island restoration project was authorized 
in the 1996 WRDA and has been a success. The 2007 WRDA 
authorized the next phase of the Poplar Island restoration 
project which is still in the planning phase but is nearly 
ready for construction.
    I want to make sure that both of these worthwhile projects 
that serve the multiple purposes of dredge material disposal, 
ecosystem restoration, and barrier island protection for 
coastal communities from storm surges, continues to progress.
    How we handle extending the WRDA Sec. 902 (Cost Limit) 
authority for projects like Poplar Island in the 2013 WRDA will 
have a major impact on the long term success and utility of 
these projects. I look forward to asking Assistant Secretary 
Darcy for her input and assistance with keeping these projects 
on track.
    The Corps and the State have worked successfully over the 
years to redevelop the barrier islands that have historically 
been present in the Chesapeake Bay using dredge material from 
the Harbor and elsewhere. As the constructed islands reach 
their designed capacity the State and the Corps need work to 
close these facilities and move on to the next disposal site.
    The Baltimore Corps District is revising its Dredge 
Material Management Plan (DMMP) to reflect the closure of Hart-
Miller Island (HMI). Cox Creek will replace HMI as the disposal 
site for dredge material in the DMMP for Baltimore dredging 
projects.
    I am pleased that the discussions between the Baltimore 
Corps District and the State are resulting in a mutually agreed 
upon solution. I will continue to follow the development of 
this process and will be in contact with the Assistant 
Secretary as the revised DMMP makes its way to her for 
approval.
    Another major set of concerns are the accumulated sediments 
and nutrients behind Conowingo Dam and the impact these 
pollutant are having on Chesapeake Bay water quality. In 
December, I wrote a letter, with several of my Bay State Senate 
colleagues, to the Assistant Secretary urging the completion of 
the long overdue Lower Susquehanna Watershed Assessment.
    This study is designed to examine the load of pollutants 
accumulating behind the Conowingo Dam. The completion of this 
study is imperative to informing any remediation actions that 
may be necessary to improve the health of the Chesapeake Bay.
    I understand that the Corps may not be directly involved in 
the work to remediate the accumulated contaminants behind the 
dam, but I think the findings of the ongoing Assessment could 
be very informative of the upcoming FERC relicensing process.
    I'd be remiss if I didn't also take this opportunity to 
mention the important work the Corps is doing in Maryland, and 
throughout the Bay region, to provide critical environmental 
restoration of natural resources. The Corps' shoreline 
protection, sediment management, and oyster and habitat 
restoration programs are integral to Chesapeake Bay restoration 
efforts. Since oysters represent more than just a source of 
income for Maryland's watermen--they are natural biological 
filters continually cleaning up the Bay--WRDA's habitat 
restoration is leading to long-term solutions for water quality 
in the Bay.
    It has been more than 5 years since Congress passed the 
last WRDA legislation. It is essential to our Nation's 
infrastructure, economy, and environment that we work together 
to craft a strong, effective bill. I look forward to working 
with my colleagues on the latest reauthorization of WRDA.

    Senator Boxer. Thank you very much, Senator.
    Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Chairman Boxer and Ranking Member Vitter, 
thank you for holding this hearing today.
    I would also like to extend my gratitude to Assistant 
Secretary Darcy and General Bostick and all the other witnesses 
for being here today, and for your willingness to share your 
time with this committee.
    Madam Secretary, I know you had the opportunity in 2011 to 
spend some time on the Platte River in Nebraska. I want to 
thank you for coming to our State. I understand that you saw 
several bald eagles while out on the Platte River, and you 
developed a real appreciation for the natural resources of our 
great State.
    I would like to take this opportunity to point out some 
other resources that Nebraska has to offer as you carry out 
your work. Recognizing the important role that technical 
expertise plays in the Corps of Engineers mission, I want to 
make you aware, if you are not already, of the recently 
established Water for Food Institute at the University of 
Nebraska. The Institute's executive director, Professor Roberto 
Lenton, who was previously at the World Bank and helped to 
launch the global water partnership.
    I would like to invite the experts at your engineering 
research and development center and across the Corps to visit 
and utilize these experts that we have at the University of 
Nebraska. Nebraska, like so many other States, has grappled 
with water resource management challenges. After dealing with 
the damage and devastation of the floods along the Missouri 
River in 2011, we are now facing a time of historic drought all 
across our State.
    I am pleased to be joining a committee that has a very 
strong history of bipartisan cooperation on these important 
infrastructure issues, and I look forward to working with all 
of my colleagues on the committee on this next Water Resources 
Development Act. I am pleased we are meeting today to examine 
the implementation of the Corps' water resource policies. 
Before we undertake the consideration of this new bill, that 
will hopefully reform and expedite project delivery and 
prioritize water resources projects, it is important that we 
understand how the Corps is currently working to maintain 
navigation channels, reduce flood and storm damage and restore 
aquatic ecosystems.
    Thank you again, Madam Chair, for holding this hearing. I 
look forward to today's testimony and questions. Thank you.
    Senator Boxer. Thank you so much, Senator Fischer.
    Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Madam Chairwoman, for 
holding this very important hearing on our Nation's water 
infrastructure priorities.
    For New York, in the wake of Superstorm Sandy, this is one 
of the most urgent priorities for New Yorkers trying to rebuild 
our communities. I want to thank Assistant Secretary Darcy for 
your willingness to testify before this committee twice in 2 
weeks, and for your strong commitment to helping my State. I am 
incredibly grateful, because all the communities in the 
Northeast that were damaged by Sandy are in urgent need. We 
will need your assistance in rebuilding our communities and our 
coastal infrastructure.
    For Madam Chairwoman and Senator Vitter, I share your 
commitment to having a strong WRDA bill this year. New York is 
not only a maritime State, it has 127 miles of coastline, but 
our State is also home to 70,000 miles of rivers and streams 
and 76,000 freshwater lakes, pond and reservoirs, and hundreds 
of miles of shoreline along Lakes Erie, Ontario and Champlain, 
and the St. Laurence Seaway. Superstorm Sandy, Hurricane Irene 
and Tropical Storm Lee have shown us in no uncertain terms the 
importance of Army Corps flood protection and mitigation to 
communities across New York and the Northeast.
    One of the lessons learned is that mitigation matters. And 
providing adequate flood protection, whether it be structural 
or non-structural, reduces the risks associated with extreme 
weather. Communities along the coast that did not have dunes or 
sea walls were exposed to a greater impact from the storm surge 
than those that did, and suffered far greater damage as a 
result.
    Another lesson learned is that we cannot just rebuild what 
was lost. We have to rebuild smarter, stronger and more 
resilient. That is why I am working with Senator Lautenberg to 
provide the Corps with more flexibility when they rebuild and 
repair infrastructure damaged by a disaster to provide more 
effective protection against the next storm or flood. In the 
era of more frequent extreme weather that we live in, this is 
just common sense.
    While rebuilding from Sandy remains a top priority, there 
are other key water infrastructure priorities that I hope will 
be addressed in the next WRDA bill. Last week, this committee 
had a hearing on the Harbor Maintenance Trust Fund, which is a 
major priority for the Great Lakes communities that rely on 
strong ports and harbors to support local jobs and strong local 
economies. I fully support Chairwoman Boxer's efforts to 
include a Harbor Maintenance Trust Fund guarantee in the next 
WRDA bill.
    The Army Corps also has an enormous responsibility to 
protect the Great Lakes against the threat posed by Asian carp. 
These invasive species pose a significant threat to the Great 
Lakes and to the regional economy of Western New York. The Army 
Corps must move quickly to finalize the Great Lakes-Mississippi 
River Inter-Basin Study, which must be completed by January 
2014, so that additional measures can be taken to prevent the 
flow of carp from the Mississippi River Basin into the Great 
Lakes.
    Maintaining our Nation's water infrastructure is one of our 
biggest responsibilities as a Federal Government. Dams, levees, 
dunes and other flood control infrastructure provide life-
saving protection to our coastal and flood-prone regions. 
Maintenance of our harbors protects jobs and ensures the United 
States can remain competitive. Keeping our lakes and streams 
free of dangerous invasive species keeps our drinking water 
clean and our sporting and recreational industry strong.
    So I look forward to working with our Chairwoman and 
Ranking Member. I look forward to working with the Corps and my 
colleagues on this committee to address these very urgent 
needs. Thank you.
    Senator Boxer. Thank you so much, Senator.
    Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair.
    Madam Chair, thank you and the Ranking Member for 
scheduling this important hearing. I am delighted to be here 
for my first hearing as a member of this committee. I want to 
thank our two distinguished panelists for being here, also.
    America's inland waterways, ports and flood control 
structures help drive domestic and global commerce, spur 
economic development, and support millions of American jobs. 
The President has stated he wants to double America's exports. 
To do so, we must address needed updates in infrastructure that 
manages our water resources. We must make sure that American 
products can move efficiently to global markets.
    Most of us recognize the Inland Waterways Trust Fund is 
dysfunctional, due in part to cost overruns and decreased 
revenues. The trust fund may require structural changes to 
ensure that aging infrastructure can be maintained and 
rehabilitated. Any changes should include meaningful input from 
commercial shippers that pay the fuel tax to support the fund.
    With 15 ports, my home State of Mississippi recognizes the 
importance of our Country's water resources, in particular the 
extraordinary value of the Mississippi River. The Mississippi 
River is a wonderful work of nature. It is also a critical 
backbone of our Nation's economy, responsible for creating $105 
billion worth of America's GDP. It should be a key component of 
any discussion we have about the Nation's commerce and 
waterways.
    The Mississippi River and Tributaries Project, MR&T, has 
protected this essential artery of commerce for more than eight 
decades, safeguarding the flow of traffic on the river and 
fertile agricultural lands along its shores. Since 1928, the 
project's planning, construction, operation and maintenance has 
delivered a 34 to 1 return on its investment and saved $350 
billion in prevented flood damages.
    In short, the MR&T is a Federal project that works. Yet we 
are not fully utilizing this proven investment. The MR&T is 
only 85 percent complete, leaving many areas and the flow of 
commerce vulnerable to disaster, including areas in my State of 
Mississippi.
    In addition to the Mississippi River, effective policies 
concerning water resources along the Gulf Coast are vital to 
the protection of life, property and the well-being of our 
Nation's economy. The Mississippi Coastal Improvement Program 
was authorized by Congress following Hurricane Katrina to 
provide storm damage protection off the coast of Mississippi. 
The Corps of Engineers completed the program's initial projects 
under budget. But Mississippi is still waiting for work to be 
done on other Mississippi projects that have received favorable 
chief reports from the Corps.
    It is only a matter of time until another hurricane hits 
the Gulf Coast of our Country. We must be prepared. Work on 
these projects needs to begin without further delay.
    I would like to hear the Secretary's views today on these 
issues and what the Corps is doing to address inland waterway 
needs, especially how projects of national significance, such 
as the MR&T, might be impacted should sequestration occur. 
Unless this policy changes, the Corps of Engineers will face an 
8.2 percent reduction in its budget. So I am concerned that the 
MR&T could lose funding, putting jobs and safety of Americans 
at risk.
    I am also interested in learning how the Corps prioritizes 
projects for funding each year in the Administration's budget. 
Finally, I would like to state that we are long overdue in 
addressing the dredging needs of our Nation's ports, which was 
a subject of the committee's most recent hearing. It is 
particularly troubling that lack of maintenance dredging makes 
a port less competitive in securing future maintenance 
dredging. For Mississippi's State port, at Gulfport, 
Mississippi, this has become a self-perpetuating cycle that 
must be addressed.
    So thank you, Madam Chair. Thank you to these distinguished 
witnesses. I look forward to a very important hearing.
    Senator Boxer. Thank you, Senator. Welcome to our 
committee. I think you will find that when we are in the area 
of WRDA and highways, we are very bipartisan. A little 
different when we are talking about climate change.
    [Laughter.]
    Senator Boxer. But we are starting off on the things we 
agree with. So that is good.
    Senator Wicker. Thank you.
    Senator Boxer. And we know you will be a part of a very 
productive committee.
    So the order is Carper, Boozman, Baucus. And at that point, 
we are going to stop the opening statements and go straight to 
our distinguished panel. Senator.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. I agree with what the Chairwoman's 
characterization of our committee. It is a good committee; we 
do get a lot done.
    I just want to say to Senator Fischer, as she prepares to 
head for her next meeting, it is great to have you on board. We 
welcome you and also Roger. I think you will both add a lot to 
this committee. Welcome.
    Secretary Darcy, it is very nice to see you. Thanks for 
joining us today. Thanks for bringing General Bostick with you. 
It is a pleasure to see you both. Thank you for your 
leadership. You have hard jobs, very challenging jobs, but 
really important jobs, as you know. We are grateful for your 
leadership and what you do.
    I want to welcome out in the audience, sitting two rows 
behind Secretary Darcy, over your right shoulder, is a fellow 
from Delaware, Collin O'Mara, who is our Secretary of Natural 
Resources and Environmental Control. He has been a terrific 
Secretary for the last 4 years, hired by our Governor, Jack 
Markell, and one of the best hires that the Governor has made. 
He has been terrific. Not only just a good Secretary for us, 
but he has actually played leadership roles among the Nation's 
Secretaries of Environment and Natural Resources. We are happy 
that he is going to testify later today. We look forward to his 
being here. He is a real credit to our State.
    As you all know, our State of Delaware, we have water to 
our east, we have the Delaware River, which farther south 
becomes the Delaware Bay, farther south becomes the Atlantic 
Ocean. And not far off to our west is the Chesapeake Bay. So we 
are kind of surrounded by water and some land as well. But 
along with our inland bays, our smaller rivers and tidal 
marshes, we are also blessed with terrific water resources. The 
Army Corps of Engineers has been and remains a critical partner 
to us in managing those resources.
    For example, the Corps is in the midst of deepening the 
main channel of the Delaware River, a critical shipping 
corridor, to 45 feet in anticipation of the larger super 
Panamax, the ships that are going to be coming our way. This 
project, this deepening project, years in the making and vital 
to regional commerce, will allow Delaware ports like the Port 
of Wilmington to make our contribution to the President's goal 
of doubling exports by 2015.
    On the other side of the State, to our west the Chesapeake 
Bay is the largest estuary in the United States of America, 
host to countless species and one of our Country's natural 
national treasures. Senator Cardin has left us, but he has 
spent huge amounts of time and energy trying to make sure that 
the large estuary, huge estuary which has these enormous dead 
zones, is brought back to life. I think we are actually seeing 
some encouraging progress.
    If you can believe it, back to Delaware, both the 
pharmaceutical industry and the Red Knot, the Red Knot is an 
endangered migratory bird, depend on the largest population of 
horseshoe crabs in America. Those horseshoe crabs are found 
right along the Delaware Bay shore.
    The Corps' partnership in environmental restoration 
projects has helped to revitalize and enhance these magnificent 
coastal environments for the benefit of wildlife, the benefit 
of outdoorsmen and women, for tourists and the businesses that 
they support. Finally, as we tragically saw during Hurricane 
Sandy, Delaware is also at the mercy of severe coastal storms. 
We depend on the Corps' flood protection projects, which have 
spared lives and protected hundreds of millions of dollars 
worth of our constituents' properties. Whatever the project may 
be, we value our partnership with the Army Corps of Engineers 
and the work that they do, that you all do. I really want to 
thank Senator Boxer and our Ranking Member, Senator Vitter, for 
making WRDA a top priority in our 113th Congress.
    I often say my work in the Senate, everything I do, I know 
I can do better. I think the same is true for all of us, if we 
are honest, and the same is true of all our Federal programs. 
That is true of the Army Corps of Engineers.
    We last passed a WRDA bill in 2007. I was proud to be part 
of the bipartisan reform efforts that I believe have had a 
positive impact on the Corps' effectiveness. I appreciate that 
Senator Boxer and Senator Vitter have been just as receptive to 
our suggestions, to my suggestions this time around. However, 
as much as we seek to improve the policies that guide the 
Corps' work, we also have to keep in mind the fiscal 
constraints under which we are all acting. I was reminded of 
that just in the last 2 days. We have to focus on new ways of 
doing business that offer us better results for less money 
where possible, doing more with less, rather than less with 
less.
    Nowhere is this as clear to me than in the storm damage 
protection and coastal hazard mitigation. The Corps, along with 
FEMA and States and municipalities, must form even closer 
working relationships to help protect against rising seas and 
stronger, more frequent storms. There are other areas of 
coastal policies such as the regional management of 
sedimentation, sediment resources that I believe could also 
yield cost savings while offering better outcomes.
    Ultimately, I am sure we can accomplish this. We have more 
solutions than we do have problems. While our budgets may be 
limited, our capacity to innovate is limitless. I look forward 
to hearing your ideas from this panel and the subsequent panel. 
We are delighted to have this hearing today.
    Thank you, Madam Chair. My thanks to the witnesses.
    Senator Boxer. Thank you very much.
    And we turn to Senator Boozman.

            OPENING STATEMENT OF HON. JOHN BOOZMAN, 
            U.S. SENATOR FROM THE STATE OF ARKANSAS

    Senator Boozman. Thank you, Madam Chair.
    I think in the interest of time, which you will appreciate, 
you and the Ranking Member, I will submit something into the 
record. There are a couple of things, reduced levels of service 
on our inland waterways, hydropower modernization, levee safety 
policies as well as the Olmstead and Inland Waterways Trust 
Fund. Certainly those are things that I'm concerned about, 
along with other aspects of your testimony.
    So it is good that you are here. I look forward to hearing 
the testimony.
    Senator Boxer. Thank you, Senator. We will put your opening 
statement into the record.
    [The referenced statement was not received at time of 
print.]
    Senator Boxer. Senator Baucus.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Madam Chairman.
    I am very pleased to be here, for a lot of reasons. One, 
because of the importance of the Corps to not only the Country, 
but my State of Montana. Second, to be able to ask the 
Assistant Secretary of the Army Corps, Jo-Ellen Darcy, some 
questions. Jo-Ellen Darcy once worked for me. She was on my 
staff, and just terrific. I would turn to Jo-Ellen with all 
kinds of questions about the Corps and WRDA, you name it. I 
very much appreciate how competent and how well she answered, 
and what a sterling person she is. So I am not at all surprised 
that she has been promoted, a while ago, to be Assistant 
Secretary of the Army for Civil Works. We are very proud of 
you.
    I would like to focus on a couple of areas, how the Corps 
affects the State of Montana. First, flood risk management, the 
second is water demands on Missouri. A couple of years ago, 
2011, Montana suffered some of the worst floods in recent 
memory. It was stunning, the floods in the State of Montana. 
And I am sure this is true across the Country. People, 
restaurant owners, people who worked on the highway and county 
commissioners, and farmers, ranchers, all joined together to 
help each other out. It was really flooded. It is hard for me 
to find the superlatives just to explain how flooded it was.
    I had to go visit some of these places; I was stunned how 
much was underwater. I didn't know there was that much water, 
but it was there. I deeply appreciate all that they put 
together.
    FEMA alone distributed I think about $60 million to pay for 
roads and levees and irrigation ditches and water treatment 
plants and now they are slowing getting back together. I was 
just there a year ago, and it was still not totally recovered.
    The Corps, of course, played a very essential role in both 
planning ahead and managing the base when the floods came.
    On the first count, I have worked for 3 years to inject 
some common sense into the overlapping levee inspection, a 
process that involves both the Corps and FEMA, especially the 
Corps' certification process of FEMA. I know, Madam Secretary, 
how much you understand and appreciate that. I will go visit 
communities in Montana, around Great Falls, for example, Sun 
River, Miles City, people are just fit to be tied. They just 
want to do the right thing, they want to have the levees there 
so flood insurance can be provided, so the area can be 
developed. It is just bureaucracy, the tension between the 
Corps and FEMA, who is going to pay for it and so forth.
    Frankly, I would like to hear from you, Madam Secretary, 
about how the Corps is implementing all of that, especially a 
provision that Senator Tester and I included in the Highway 
Bill last summer, to straighten out that confusion.
    Now while we are sitting here in the Capitol today, we 
expect rain tonight. While it is raining here, the snow packs 
will be building in the mountains of Montana. The question is, 
will 2013 bring another 500-year flood. Nobody knows. But the 
independent panel that reviewed the Corps operation in Missouri 
in 2011 did note the recent frequency of extreme weather. And 
droughts become floods in Montana, it is amazing.
    Therefore it seems appropriate that our Chairman has chosen 
to focus a section of the new WRDA Act on extreme weather. I 
think that is very appropriate that we do that, because it is 
happening, it is with us, we have to deal with it. The whiplash 
damage caused by floods one year, then drought and fires the 
next year, underscores the need for more attention to this 
phenomenon, the fluctuation, the frequency.
    It also underscores the need to avoid knee-jerk reactions. 
We too often forget or choose to forget a very important fact. 
The Missouri River wasn't dammed up just to benefit our friends 
east of the 100th meridian, or stated differently, less 
obliquely, opaquely, we didn't build dams on the Missouri to 
benefit our friends on the Mississippi. That was not the plan. 
So I understand that people downstream, and by downstream I 
mean way downstream, on the Mississippi, not downstream 
Missouri, but on the Mississippi, want us to flood water down 
from the dams upstream in the Missouri. I understand that. But 
that is not the purpose of the master manual that manages the 
dams on the Missouri.
    The current operating manual took a decade and a half to 
complete, a decade and a half. So much time and effort has been 
put into putting that master manual together. So beyond flood 
management, I remind you, Madam Secretary, Montanans irrigate 
their farms, they run valuable fishing businesses, you know 
about Fort Peck Lake. They draw their power from the river.
    In 2010, 800,000 visitors went to Fort Peck and Lake 
Koocanusa, spent about $17 million annually. I spent years on 
this committee fighting attempts to drain the livelihood of 
Montanans to float barges downstream. I needn't remind you of 
that economic study the Corps undertook, you are smiling, so 
you know what I am talking about, and you know the conclusions 
in it, which basically provided that on about an eight to one 
basis, economic value is much greater, that is the recreation 
value and dollar value, is about eight times higher upstream 
than is the economic value of downstream Missouri barge 
traffic. Eight times higher economic value from recreation than 
it is for downstream.
    And that is in the manual. The manual sets policy and I 
thank you for following the manual.
    In two consecutive years, now, though, for separate 
reasons, but the drop of a hat, downstream rivers have 
attempted to siphon off our water. It is just not right, but 
first of all, that is not what the manual provides.
    So I look forward to the comments of our witnesses about 
the long-term stable management of our water resources, and I 
thank you, Madam Secretary, for your good work.
    [The prepared statement of Senator Baucus follows:]

                     Statement of Hon. Max Baucus, 
                 U.S. Senator from the State of Montana

    Good morning. I am pleased to join today for this oversight 
hearing on the Corps of Engineers. I welcome the Assistant 
Secretary of the Army for Civil Works, Jo-Ellen Darcy, who was 
a key member of my staff before taking over the reins at the 
Corps.
    While the Corps affects many areas of American life, I will 
focus on two key areas: flood risk management and water demands 
on the Missouri River.
    In 2011, Montana suffered some of the worst floods in 
recent memory. For months, we used Montana grit to make 
emergency repairs in towns like Roundup, Ryegate, Joliet, Lodge 
Grass, and Sun River.
    FEMA, the Federal Emergency Management Agency, alone 
distributed over $60 million to pay for repairing roads, 
levees, irrigation ditches, and water treatment plants.
    The Corps, of course, played an essential role in both 
planning ahead and managing the basin when the floods came.
    On the first count, I have worked for 3 years to inject 
some common sense into the overlapping levee inspection process 
of the Corps and certification process of FEMA.
    I hope to hear today from Assistant Secretary Darcy about 
how the Corps is implementing a provision that Senator Tester 
and I included in the highway bill last summer.
    Now, while we sit here in the Capitol expecting rain 
tonight, the snowpack is building in the mountains of Montana. 
Will 2013 bring another 500-year flood? No one can say.
    But the independent panel that reviewed the Corps' 
operation of the Missouri in 2011 did note the recent frequency 
of extreme weather.
    It seems appropriate, therefore, that the Chairman has 
chosen to focus a section of a new Water Resources Development 
Act on extreme weather.
    The whiplash damage caused by floods one year, then drought 
and wildfires the next year, underscores the need for more 
attention to this area. It also underscores the need to avoid 
knee-jerk reactions.
    We too often forget, or choose to forget, an important 
fact. The Missouri River wasn't plugged up just to benefit our 
friends east of the hundredth meridian.
    Or put another way: we didn't dam the Missouri River just 
to help the Mississippi.
    Congress authorized the Corps to manage the Missouri for 
multiple purposes. The current operating manual took a decade 
and a half to complete.
    Beyond flood management, Montanans irrigate their farms, 
run valuable fishing businesses, and draw their power from the 
river. In 2010, 800,000 visitors to Fort Peck Lake and Lake 
Koocanusa spent $17 million locally.
    I have spent years on this committee fighting attempts to 
drain the livelihood of Montanans to float barges downstream.
    Lo and behold: in two consecutive years now, for separate 
reasons but at the drop of a hat, downriver States have 
attempted to siphon our water.
    In that light, I look forward to the comments of our 
witnesses about long-term stable management of our water 
resources.
    Thank you.

    Senator Boxer. Thank you so much, Senator.
    So we are now going to hear from our distinguished panel, 
Hon. Jo-Ellen Darcy, Assistant Secretary of the Army. She is 
accompanied by Lieutenant General Thomas P. Bostick.
    We will give you, I think we should give you about 8 
minutes instead of the 5 minutes, so that you don't have to 
rush your testimony. Go ahead.

 STATEMENT OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
ARMY, CIVIL WORKS; ACCOMPANIED BY: LIEUTENANT GENERAL THOMAS P. 
 BOSTICK, COMMANDING GENERAL AND CHIEF OF ENGINEERS, U.S. ARMY 
                       CORPS OF ENGINEERS

    Ms. Darcy. Thank you, Madam Chair and members of the 
committee. I am honored today to testify before you on the 
implementation of the U.S. Army Corps of Engineers Water 
Resources Policy.
    To address the Nation's water resources infrastructure 
needs and continue to provide greater value to the Nation, the 
Army Corps of Engineers is working to transform the Civil Works 
program to improve performance and responsiveness, to enhance 
the quality of our products, to increase customer satisfaction, 
to build public trust and confidence and most importantly, to 
improve the reliability of the Nation's water infrastructure.
    First, I will highlight the four issues that you addressed 
in your letter of invitation for this hearing. The first was 
vegetation on levees. Over the last few years, the Corps has 
been looking in depth into the issue of how vegetation impacts 
infrastructure performance worldwide. Also, advancing our woody 
vegetation research efforts and using the information to work 
collaboratively with other Federal agencies and local levee 
authorities to develop the best path forward for managing 
vegetation on or near public safety infrastructure in the 
Country.
    The second issue was in-kind credit. For approving in-kind 
credit for projects, the Corps provides guidance on the 
implementation of Section 221 of the Flood Control Act of 1970, 
which was amended in WRDA of 2007. This is to study and 
construct Corps water resources projects and provide for the 
affording of credit to the non-Federal sponsor for their 
planning, for their design and for construction of work, if the 
work is determined to be integral to the project under 
discussion.
    The third issue was levels of service on our Corps locks. 
By establishing operating hours for its locks, the Corps is 
implementing a system-wide, uniform approach to standard levels 
of service. We do not plan to close any locks, but rather, 
adjust the operating hours of service with the lowest level of 
commercial use, those with less than 1,000 commercial lockages 
per year. This impacts approximately 54 of the Corps 239 locks 
on our systems.
    The fourth issue that you raised was applying engineering 
standards for flood damage and for hurricane protection 
projects. The Corps is using a risk-informed process to both 
confirm as well as adjust the application of post-Katrina 
standards to other projects resulting in a more appropriate and 
cost-efficient design approach. The Corps has been developing a 
strategy to address major challenges, including ensuring the 
performance of the key features of the Nation's water 
infrastructure and responding to shifting demographics, as well 
as changes in societal values and climate variability.
    Our intent is to better equip the Corps program, our civil 
works program, to effectively meet current and future needs, as 
well as ensure that decisionmakers are fully informed. This 
strategy focuses on four main areas: planning modernization, 
budget development transformation and infrastructure strategy 
and our methods of delivery. We are looking to ensure that the 
budget development process considers the entire portfolio of 
potential studies and projects. Funded projects will be 
completed more quickly, thereby realizing the benefits for 
those projects that offer the best return on investments from 
the Nation.
    The Civil Works transformation also links national 
objectives, our strategic goals and current and emerging needs 
using a system-based watershed approach. When implemented, this 
new approach will compare outcomes of competing studies and 
projects based on their returns. Collaboration with our 
customers, our stakeholders, the public and Congress will 
enable us to successfully implement this approach.
    Ensuring the continued performance of the key features of 
our infrastructure is becoming more costly over time, in part 
because of the age of the components of some of our projects, 
but also because of the increases in costs to repair and 
rehabilitate them. Operational demands have also grown and 
changed. We are working on an infrastructure strategy to 
address these growing needs. The strategy incorporates four 
focused areas. It will be an integrated approach to manage our 
assets, managing the system over its entire life cycle, 
evaluating whether a project or group of related projects 
should remain a Federal responsibility prior to making a 
substantial further investment, and potentials for alternative 
financing mechanisms.
    The Administration is exploring alternatives for 
infrastructure financing, including public-private partnerships 
and an infrastructure bank. The intent of the strategy is to 
make the best use of Federal and non-Federal dollars to reduce 
risk and improve the reliability of the Nation's water 
resources infrastructure.
    The strategy is to have reliable and efficient methods of 
delivery by linking technical capabilities to uniform national 
standards, maintaining our core competencies and having 
consistent methods, processes and approaches throughout the 
Corps of Engineers. The desired end result is a high quality 
and timely product delivery services for our customers and our 
stakeholders. To that end, for example, the Corps has 
established centers of expertise from major dam safety 
modifications as well as inland navigation design and deep 
draft navigation economics.
    The Corps of Engineers has a strong tradition of working 
collaboratively with our non-Federal interests to plan as well 
as deliver our products. Our transformation partners include 
States, tribes, local governments, non-governmental 
organizations, non-profit agencies and the general public. 
These partnerships are increasing and will likely continue to 
increase as we share our common goal of having reliable and 
resilient infrastructure for our Nation.
    Madam Chairman and members of the committee, I thank you 
for the opportunity and I look forward to answering any 
questions that you might have.
    [The prepared statement of Ms. Darcy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you. General.
    General Bostick. Madam Chair, I have no prepared remarks, 
but would just like to thank the committee for all the support 
that we have received, and look forward to the questions.
    Senator Boxer. Thank you very much.
    I will start it off, talk about home a little bit, Madam 
Secretary. The city of West Sacramento is working with the 
Corps to improve the inadequate Federal levees that protect the 
city. And anyone who has looked at the Sacramento area knows 
how vulnerable we are.
    The city is currently planning how to spend the substantial 
local and State dollars that have been committed to the 
project. On October 1st of last year, Mayor Cabaldon wrote to 
you requesting guidance on the Corps' crediting policy. The 
city plans to spend $14 million, that is a lot for the city of 
West Sacramento, to design a 5.7 section of the levee project. 
But they seek assurances that its efforts will be eligible for 
credit.
    On November 29th, you replied that you weren't able to 
provide specific criteria that would be used to evaluate any 
requests for an exception to the Corps' crediting policy. Now, 
without specific criteria, how can non-Federal sponsors like 
West Sacramento have certainty that the work they are pursuing 
will be eligible for credit? And how can we proceed from this 
point, so we can encourage the locals to move ahead with these 
important improvements?
    Ms. Darcy. Senator Boxer, I believe in the case of 
Sacramento, we have worked with the local sponsor to come up 
with a timing schedule for when our feasibility study would be 
completed and when their construction would start, so that we 
would be able to evaluate the study and that would be 
completed, or in the draft feasibility stage, which is when we 
would be able to make a determination as to whether the 
construction that they were contemplating would be integral to 
the project. That's the key to determining credit, is if it is 
integral to the Federal project.
    Senator Boxer. When will you let them know?
    Ms. Darcy. I think this draft, I want to say August, but I 
will double check with staff. I think it is August 2013 that 
the draft feasibility will be released.
    Senator Boxer. If I could, instead of taking up your 
valuable time, could we talk about this? That is a long time to 
wait. These projects are urgent. Could we talk a little about 
this? This is the city of West Sacramento, which is not the 
city of Sacramento. So could we talk later?
    Ms. Darcy. Certainly.
    Senator Boxer. OK. First, I wanted thank you, because we 
met about the Salton Sea, and for those people here who have 
never heard of it or don't know, it is a huge, amazing sea that 
came about through human activity, let's put it that way. In 
the 1950s and 1960s, it was just this amazing recreation area. 
And because of a confluence of issues, it is drying up. If it 
continue the way it is going, it is a huge health hazard to not 
only the people of Riverside County, but it will be a problem 
even as far away as Los Angeles. So we are talking about 
potentially millions of people breathing in small particles, et 
cetera.
    We have to make sure that the sea is restored. I have been 
working with you and also Interior. I look forward to working 
with the new Interior Secretary on this.
    Would you commit to me to work to make sure that the Corps 
is involved in the restoration of the sea? Because you are the 
ones that can really do it. There is a lot of talk but you are 
the ones who have the expertise. Can we continue our 
collaborative relationship?
    Ms. Darcy. Of course. I believe also that Colonel Toy was 
with you when you went to visit the Salton Sea.
    Senator Boxer. He was, and he couldn't have been nicer. It 
is a very big challenge for us. It is a health issue, it is a 
species issue and it hasn't gotten the attention it deserves.
    I have one more question. Your testimony highlights the 
Administration's efforts to explore alternative models of 
infrastructure funding. In MAP-21, which was our highway bill, 
all of us together worked to expand TIFIA, which is a way to 
take a steady flow of financing and, because we have that 
steady flow, in other words, in this case of the highway bill, 
a vote by the people of the localities to fund transit or fund 
roads, the Federal Government can step in front and get that 
funding quicker and get paid back through the State a stream of 
funding.
    So we are looking at this in WRDA, a way to do the same 
thing, where localities vote to improve their water resources, 
the Federal Government, without any risk, really, can come up 
front and fund it. Will you take a look at that part of our 
WRDA draft and get back to us as to whether you think it could 
be helpful?
    Ms. Darcy. Yes, I believe it provides loan guarantees, 
doesn't it?
    Senator Boxer. It is credit assistance, yes. The steady 
stream of funding is already there. It is not a lick and a 
promise. It is there via a sales tax or a commitment by a 
county. So will you work with us so that when we put this out, 
hopefully in our WRDA bill, you will have looked at the 
technicalities?
    Ms. Darcy. I believe the provision in MAP-21 was sort of a 
pilot project, so putting it in WRDA maybe could build off what 
we learned from that.
    Senator Boxer. OK, well, we are going to need your help on 
the funding for the Salton Sea, because that is something we 
just need to have. We need to look at these innovative ways, 
because if we do, we can really multiply jobs and multiply 
commerce. Because a lot of these projects are very expensive.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair, and thank you, 
Madam Secretary and General Bostick, for all of your work. 
There is no State that is more dependent on the good work of 
the Corps than Louisiana. And of course, Hurricane Katrina 
underscored that, and thank you in particular for historic 
important work post-Katrina that made the directly impacted 
area far safer than the day before Katrina.
    The last WRDA, WRDA 2007, was a big part of that direction 
and of that work. But there are some aspects of implementation 
of that, as I suggested at the beginning, that I am very, very 
frustrated about. And in the spirit of fixing those problems 
for the next WRDA which we are going to produce, I want to 
focus on that.
    My biggest frustration is really that the Corps ignores 
mandates from Congress when it chooses to, when it doesn't want 
to do certain things. I think that is really inappropriate. 
Madam Secretary, I assume you recognize, both in terms of 
common sense use of the language and legal language that there 
is fundamental difference between a provision which says you 
may do this and another provision which says, you shall do 
this, is that fair to say?
    Ms. Darcy. Yes, Senator.
    Senator Vitter. I think it is universally understood, 
including in legal language, may is discretionary, shall is 
mandatory. And yet the Corps has ignored several ``shalls'` in 
WRDA 2007 because it clearly just doesn't want to do those 
things. For instance, with regard to the Louisiana Coastal 
Protection and Restoration Report, that was mandated and 
specifically in WRDA 2007 Section 7014 says, ``The Secretary 
shall submit to the maximum extent practicable specific project 
recommendations.'` So the idea was not just to do a nice, 
general report coming out of Katrina, but that it would include 
specific project recommendations that could be fast-tracked 
coming out of this disaster.
    As you know, the Corps has not submitted a single project 
recommendation pursuant to that. Do you think that is a fair 
interpretation of that mandate?
    Ms. Darcy. Senator, I believe under the LCA that we came up 
with a suite of projects. However, the ultimate recommendation 
for going forward was not a recommendation of a particular 
project in that instance.
    Senator Vitter. So again, you are confirming what I said, 
you all submitted no specific project recommendations, even 
though that was mandated, at least to the maximum extent 
practicable. Do you think it is reasonable to take that 
language and do nothing in terms of specific project 
recommendations?
    Ms. Darcy. Senator, we make project recommendations when we 
have a cost-sharing sponsor for a project. And that was not the 
case in many of these.
    Senator Vitter. Oh, I can line up many cost-sharing 
sponsors in Louisiana for what we are talking about. That was 
not an issue. That was absolutely and is absolutely not an 
issue. Are you considering, at this late date, making specific 
project recommendations pursuant to that language?
    Ms. Darcy. Are we currently considering making 
recommendations?
    Senator Vitter. Correct.
    Ms. Darcy. Not that I am aware of. But it is something that 
we can revisit.
    Senator Vitter. OK, well, I just point that out as a pretty 
obvious example of what I am talking about. Another one is the 
Louisiana Coastal Area Comprehensive Plan. Again, in WRDA 2007, 
you were mandated, shall submit a comprehensive plan to 
Congress. To date, the Corps has not done any LCA Comprehensive 
Plan. There is a chief's report, there is LACPR, you were 
mandated to put those together, submit a Comprehensive plan, 
clear mandate. Why hasn't that been acted upon?
    Ms. Darcy. I believe that the combination of the two is 
something that has not been funded.
    Senator Vitter. Well, through the generosity of the 
American people, through act of Congress, we have sent billions 
of dollars down there related to this. Billions of dollars. 
There is a chief's report and an LACPR. All you have to do is 
put the two together for a comprehensive plan. What does it 
take to do that?
    Ms. Darcy. I want to just double check, I believe that the 
President requested it in both his 2012 and 2013 budget. And it 
would be considered a new start. But it has not been funded.
    Senator Vitter. Quite frankly, this is a game we play all 
the time. When the Corps doesn't want to do something, you say, 
we need specific line of authorization. Even though there are 
billions of dollars in this area. When the Corps wants to do 
something that doesn't have a specific appropriation line, you 
do it. So again, you are picking and choosing. Not every 
discrete action takes a specific authorization line. There are 
billions of dollars in this area that fully cover that.
    Let me just go to a final example of ignoring mandates, in 
my opinion, that touches on what Senator Boxer was talking 
about for West Sacramento. For crediting their two provisions, 
as you know, Section 104 and Section 221, they both exist, they 
are for different times of a project, different applications. 
The Corps used to use both of them appropriately.
    More recently, you issued a decision that says, we are 
never going to use Section 104. Now, not coincidentally, that 
section is more helpful and more generous to the locals. So you 
are saving money doing that.
    What has Congress done to make you think that Section 104 
has gone away and does not exist? Because we did not repeal it.
    Ms. Darcy. When the Congress amended Section 221 in the 
WRDA 2007 bill, it gave a different crediting scenario, 
including that the crediting could be applied to all projects. 
Section 104 was limited to just flood control projects. So in 
looking at that amendment, to Section 221, the application of 
credit can now be more widespread among all of our programs. It 
also recognizes, by saying that credit will be afforded to a 
local sponsor once a project has gone through the draft 
feasibility stage, gives us a point in time to measure whether 
or not that Federal project will have Federal benefits in order 
for us to afford the credit. Because it has to be proven to be 
integral to the project in order for us to be able to give the 
credit down the road to the local sponsor.
    Senator Vitter. I will wrap up and hopefully we can come 
back to this. But I just note that Section 221 did not repeal 
Section 104. Again, you are just choosing to read it that way 
because it is to your advantage. But I will follow up. Thank 
you, Madam Chair.
    Senator Boxer. Senator Cardin.
    Senator Cardin. Thank you, Madam Chair. I want to first of 
all follow up on one of the points of Senator Vitter. I think 
he expresses the frustration of many members of our committee 
when we have worked to get funding for a project, only to find 
it is not funded in the Corps' programs or it takes a lot more 
years to get started than we had anticipated.
    We have a particular problem now because we have our 
restrictions on earmarks. I know that in regard to authorized 
projects in Maryland, we are going to need to deal with the 
caps, particularly Poplar Island and Poplar Island expansion. 
Will you work with this committee in a way that we can carry 
out our responsibility, consistent with the restrictions that 
we are operating under, but to be able to have some degree of 
confidence that by our action and our intentions, that projects 
that have been authorized will in fact be funded?
    Ms. Darcy. Yes, Senator, and I think one of the things you 
are referring to is the 902 cap that is in place.
    Senator Cardin. Yes.
    Ms. Darcy. Historically the 902 caps have been addressed 
through an earmark. What we have to do in the Corps, I think, 
is two things. One is to look at the fact that we have too many 
902 busts right now. So we need to look more carefully at how 
we are actually doing our cost estimates to begin with. Second, 
we need to devise a way that we can make recommendations on 
what are called post-authorization change reports, which tell 
you why the cost has increased and what the new total project 
cost should be.
    But as you noted, the total project cost has to be changed 
by Congress if it meets the 902. That may often be viewed by 
some as an earmark as opposed to adjusting a current project. 
So I think we have to work together to figure out a way that we 
can address the 902s, maybe in some broader programmatic way or 
in a way that we can be able to have it not be an earmark. 
Because especially for an ongoing project, if it is 75 percent 
complete and you just need a little more money to complete it, 
that shouldn't be standing in the way.
    Senator Cardin. And some of this is self-imposed by us. I 
think we have to work together. This committee has worked very 
closely to advance projects that are important that you all 
have carried forward. I just urge you that if there is an 
understanding that by having this pool of funds that these 
projects are going to be able to move forward. We expect at the 
end of the day these projects will move forward. Poplar Island 
has been very popular, it has been authorized, it has been 
successful. And as you point out, the cap needs to be adjusted 
and we have to do it in a way consistent with our current 
rules.
    Let me move to Conowingo Dam. You heard my opening comments 
about it. The dam has acted as a retention pond for sediment, 
phosphorus for decades. Every major weather event we see the 
pond breached, and additional sediments and pollutants ending 
up in the Chesapeake Bay. You received a letter signed by 
several of my colleagues from Pennsylvania, Maryland and 
Virginia. There was a study that started in 2011, the Lower 
Susquehanna Water Assessment Study that has not been completed.
    We also have a deadline with a FERC reauthorization in 
August 2014. Can you tell us how we can get the adequate 
information and game plan at least to understand it in a timely 
way, also recognizing that this information will be important 
in the reauthorization under FERC?
    Ms. Darcy. Senator, I understand that the study is 
important in making those determinations. However, in order to 
be relicensed I don't believe that assessment is necessary from 
the Corps, because in the relicensing process, the only time 
the Corps of Engineers would be involved in the relicensing is 
if indeed the license----
    Senator Cardin. I understand the legal point here, but it 
is a useful bit of information when we talk about environmental 
impacts.
    Ms. Darcy. Right. And I believe that in the 2013 budget, I 
don't believe we budgeted for that assessment in the 2013 
budget.
    Senator Cardin. Once again, there are pools of funds that 
are available. I would just urge you to work with us. This is 
an extremely important environmental challenge of what happens 
during every major weather event.
    Ms. Darcy. We will, sir.
    Senator Cardin. Thank you. I appreciate that.
    One last point, Pierce Creek. Pierce Creek in Cecil County 
is a site that was used for dredge material in the upper bay, 
and now likely to reopened. There was a limited study done in 
one community about its environmental impact. The communities 
that surround, and I support this, believe that it needs to be 
a broader review before it is reopened, to make sure that the 
environmental impact is protected. Will you work with us to 
make sure we have the best information for the community?
    Ms. Darcy. Yes, sir, because I believe, some people believe 
that there are groundwater impacts around it that we need to 
improving the dyking. So yes, we will.
    Senator Cardin. Thank you. Thank you, Madam Chair.
    Senator Boxer. Thank you.
    I just want to thank Senators Fischer and Gillibrand, 
because Senator Baucus, who is Chair of Finance, has such a 
crazy schedule. He is going to proceed. And we thank you for 
your cooperation.
    Senator Baucus. Thank you both very much. I will be very 
brief, Madam Chairman.
    Madam Secretary, would you just give me the status of the 
Corps work in harmonizing the certification process with FEMA?
    Ms. Darcy. Yes, Senator. As a result of the MAP-21 
provision, we have been working with FEMA to better integrate 
and coordinate the information that we have. We actually have 
already finished one of our reports that was mandated under the 
law that hopefully we will be transmitting shortly.
    Senator Baucus. An interim was due a month ago, isn't that 
correct?
    Ms. Darcy. The interim report was due on the 30th of 
January. I believe it has been signed and is going through the 
Administration. We hope you will have it soon.
    Senator Baucus. When can we expect to see it?
    Ms. Darcy. I had hoped you would have it by now. I will 
make every effort to make sure it happens.
    Senator Baucus. We would really appreciate that.
    Ms. Darcy. There is a second phase of the report that is 
required by MAP-21, which I think is going to help all of us. I 
think the whole purpose was to better have the accreditation 
and the certification be in line with one another, so that the 
information that the Corps collects for safety purposes could 
somehow be used for FEMA to be able to use it in their flood 
insurance program. I think we are finding ways that we can 
hopefully share that information, even though some of the 
information is for safety and some is for flood insurance. But 
if the local sponsors or the local levee agencies can use the 
Corps information for FEMA purposes, that benefits everyone.
    Senator Baucus. I appreciate that. FEMA is a good agency, 
but frankly, I have even more confidence in the Corps. I 
encourage you, the Corps, to take the lead effort there to 
bring that together for an awful lot of people around the 
Country. And I am going to watch this closely, for one reason, 
it is so important. Second, the language in the bill I 
mentioned earlier, the highway bill, was a little bit vague, 
which means we are going to have to watching you very closely 
to make sure it is implemented in a way we think is 
satisfactory.
    Second, if you could just tell me a bit about the pallid 
sturgeon restoration project in the Yellowstone Basin. There is 
concern about the pallid sturgeon under the Endangered Species 
Act. We put a provision in the WRDA bill that allows the Corps 
to restore a Bureau of Reclamation project, provides irrigation 
water for sugar beet producers downstream at Glendive. I think 
you received a letter, I know you haven't read it yet, because 
you got it I think yesterday, from the Fish and Wildlife 
Service, which basically states that if this reclamation 
project is undertaken, that it is sufficient to prevent, and 
therefore not require Fort Peck renovation, isn't that correct?
    Ms. Darcy. That is correct. We did last night receive a 
letter from the Fish and Wildlife Service saying that the 
project that we have, hopefully will undertake at intake on the 
Yellowstone, will provide the kind of fish passage for the 
pallid sturgeon and other fish so that we will not have to do a 
different project at Fort Peck. The fish passage, as well as 
the bypasses that come along with it, will meet the 
requirements of the Fish and Wildlife Service.
    We are also in addition to that working with the Bureau of 
Reclamation to get a memorandum of agreement between them and 
the Corps of Engineers for the future operation of the project.
    Senator Baucus. I appreciate that.
    Then finally, with respect to the master manual, I made my 
point earlier, but I just want to hear it from you that the 
Corps will not ignore the master manual when there are efforts, 
mainly because there is a flood, efforts downstream to say, 
release water earlier to help downstream, or when there is a 
drought, to say release it now upstream to help us now for 
those States downstream. I just want you to say that you are 
going to stick with the master manual.
    Ms. Darcy. Yes, sir, I am legally bound to the master 
manual.
    Senator Baucus. Good.
    Ms. Darcy. The court determined in 2003 that the master 
control manual is the operating manual for the Missouri River 
Basin.
    Senator Baucus. While you are legally bound to follow the 
master manual, that means that you will continue to resist 
requests from Mississippi States, or even lower Missouri 
States, to change the manual just on the basis of a 1-year 
event.
    Ms. Darcy. Right. As you noted earlier, last summer we were 
fighting floods, this summer we are fighting a drought. And the 
purpose of the master manual is to be able to manage that 
Missouri River system for both instances. And it is for the 
Missouri River, it is not written to help the Mississippi.
    Senator Baucus. I thank you very much, because that is 
something that is very important to not just Montana, it is 
other upper Missouri River States. Thank you very much.
    Senator Boxer. Thank you, Senator Baucus. And thank you to 
both our colleagues, who are very gracious.
    Now we call on Senator Fischer.
    Senator Fischer. Thank you, Madam Chairman.
    Madam Secretary, it would appear that many previously 
authorized and funded water resource projects that are critical 
to public health and safety require Corps assessments, as you 
said, with Section 902 with that limit prior to a full project 
completion through the development of a post-authorization 
change report.
    How can the Administration assure us of the timeliness of 
these assessments by the Corps and by the OMB? The issue here 
is how timely are those post-authorization change reports that 
the Corps is required to do before an adjustment can be sought 
by Congress.
    Ms. Darcy. What we are doing internally is trying to get 
after it earlier. In other words, before it is a year away from 
meeting the 902 cap, we are trying to work within the Corps, 
but in our vertical team with the district, the division and 
then headquarters to get that information earlier, so that we 
are able to be able to chart a path forward on how we are 
actually going to get the 902 fix that we need. And actually, 
if it is necessary, if there are any ways we can look at what 
contingencies we built in to the costs or whatever.
    Senator Fischer. There are a number of projects that have 
exceeded their authorized spending. In Section 902, that limit 
appears to be at a similar phase of completion. So some of 
these are 80 percent finished, but they risk non-completion for 
2 or maybe even 3 years with a resulting risk to the 
populations that they are supposed to protect.
    So can you tell me what criteria is being used to determine 
which of these completed projects will move forward and when 
they will move forward?
    Ms. Darcy. Do you mean in light of a 902 or just a 
project's phase in completion?
    Senator Fischer. In light of the 902 limit, where they are 
80 percent completed, say.
    Ms. Darcy. Well, if they are 80 percent complete and there 
is no further increment of that project that we could go 
forward with without a 902 fix immediately, in looking at the 
whole array of 902 fixes, it would appear as though that would 
take some kind of priority. Because it is more eminent than 
something that is going to meet a 902 cap 3 or 4 years from 
now.
    Senator Fischer. Specifically what would you use for 
criteria, though, to move those projects forward? What would 
you look at?
    Ms. Darcy. In order to move them forward, we would need 
congressional authorization to increase the cap, increase the 
total project cost.
    Senator Fischer. And that would be the sole criteria you 
would look for?
    Ms. Darcy. We could not move forward with that. That is the 
biggest criteria.
    Senator Fischer. OK. Thank you.
    Senator Boxer. Senator Gillibrand.
    Senator Gillibrand. Thank you, Madam Chairwoman.
    My focus today is going to be, of course, on Sandy-related 
projects, because that is obviously the most urgent issue. And 
because there was no congressional report language, there are 
still some issues that need to resolve on how the Corps will 
spend the $5.4 billion that was appropriated. As you know, I 
sent you a letter on February 1st, outlining what our intent of 
that was. So my questions are directed there.
    The disaster supplemental included $20 million for a 
comprehensive study to address flood risk and vulnerability 
along with Sandy-affected coasts. It is critical that the study 
be specifically focused on the New York-New Jersey region that 
was hardest hit by Superstorm Sandy.
    Do you agree that resources should be directing to 
addressing flood risk in the hardest-hit and most vulnerable 
coastal population in my State and in New Jersey?
    Ms. Darcy. Senator, I believe the authorizing language on 
the supplemental appropriations bill directs the Corps of 
Engineers throughout its North Atlantic Division, which begins 
in Norfolk and goes all the way up to the top of Maine, to look 
at a comprehensive study of that entire coastline. However, I 
think that what we learned in looking at Sandy is that was the 
most impacted area, so that has to be looked at as far as the 
frequency of future storms, and also the vulnerabilities that 
are there in New York and New Jersey are different than the 
vulnerabilities in other parts of the North Atlantic Division.
    Senator Gillibrand. Well, so you are saying you do have to 
use the money to look at the whole region?
    Ms. Darcy. I believe it says the North Atlantic Division 
impacted, because some of the States south of New York and New 
Jersey were not, and some north. Rhode Island and Connecticut 
had some damage as well as Maryland.
    Senator Gillibrand. But you can primarily focus on the 
places that had the most damage?
    Ms. Darcy. I would think that because of the 
vulnerabilities that exist there, and the need for increased 
resiliency in those areas.
    Senator Gillibrand. I am also concerned about ensuring that 
the study produces tangible results that will allow the Corps 
to move forward with specific projects to address flood risks 
that are identified. Do you believe that the Corps has 
sufficient authority to move forward with full feasibility 
studies using the resources provided in the supplemental? And 
will you commit to moving forward with full feasibility studies 
of solutions to address the highest priority risks that are 
identified, if they are not already covered by the existing 
study?
    Ms. Darcy. I believe the funding in the supplemental will 
be adequate. However, once you begin a feasibility study, you 
are never quite sure what the scope is necessary in the end.
    Senator Gillibrand. Have you had any conversations or has 
the Corps developed any plans on how you will incorporate other 
Federal agencies, States and local governments into the study 
process? In addition, does the Corps intend to work with other 
agencies to incorporate non-structural options, including 
ecosystem restoration, into any of the plans for addressing the 
flood risk in the affected areas?
    Ms. Darcy. Yes, we will, and yes, we have. We have already 
begun also looking at, and we have been developing within the 
Federal family principle and criteria for what it is we would 
need to look at if we are going to build back resiliently. I 
serve on Secretary Donovan's task force, and we met yesterday. 
I think as part of that task force, we are also looking at this 
as well. I think what we are doing in the Corps with this study 
can help to inform what we are going to be doing with Secretary 
Donovan, because we have a 6-month time line to make 
recommendations to the President through that task force. The 
Corps is involved in that, both with NOAA and Commerce and 
Department of Interior and others.
    Senator Gillibrand. That is helpful, thank you. Shortly 
following Sandy, I met with your staff and with Senator Schumer 
to discuss seven specific projects that we identified as high 
priority and included language in the disaster supplemental 
meant to accelerate these projects and fund ongoing 
construction costs at full Federal expense. Will the Corps be 
using the list we identified as a basis for prioritizing 
projects, and how does the Corps plan to prioritize other 
projects that are necessary to reduce flood risk?
    Ms. Darcy. We will be looking at that list as well as 
within the Administration, looking at what will be considered 
ongoing construction. I know you mentioned that in your letter. 
So that will help determine. I think the way we have to look at 
this is life safety. That is our initial criteria for 
everything we would be doing. And that would be the priority 
that we would have to set.
    Senator Gillibrand. Briefly, on carp, what is the status of 
the Great Lakes-Mississippi River Inter-Basin Study, and how 
quickly will the Corps be able to move, once that study is 
complete, to begin implementation measures that will prevent 
the flow of Asian Carp into the Great Lakes?
    Ms. Darcy. The GLMRIS study, the alternative analysis that 
we will be presenting in December this year, the end of 
December, will present an array of alternatives that we think 
are possibilities for keeping invasive species out of the Great 
Lakes and the tributaries, from the Mississippi. I think once 
we have that, our next step will be working with Congress to 
decide which of those alternatives would best suit the outcome 
that is desired, which is no invasive species in the Great 
Lakes.
    Senator Gillibrand. And I have this last question that I 
will submit for the record. It is about dredging.
    Senator Boxer. Thank you. I am getting a little bit worried 
about our time. We have a panel yet to come up here.
    So if it is OK with everybody, Senator Vitter is the only 
one that I know wanted a second round. Does anyone else need a 
second round of questions?
    We are going to go to you, Senator, but right now, Senators 
Wicker and Carper haven't even had their questions. Then we 
will turn to Senator Whitehouse. Senator Wicker.
    Senator Wicker.
    Senator Wicker. Thank you, Madam Chair.
    Let me go back to a couple of things I mentioned in my 
opening statement. And I note that Senator Carper announced how 
excited his home State of Delaware is about Panamax. I think 
every State from Texas on up around the coast and up the 
eastern seaboard, we are eager to be part of economic expansion 
and job creation through this great opportunity of the larger 
vessels coming through the Panama Canal.
    I mentioned, as one of my areas of concern, the Port of 
Gulfport. The fact that we sort of have a cycle there, we 
haven't had the maintenance dredging, and that makes the port 
less able to be competitive, because it can't take the larger 
ships. It becomes a self-perpetuating cycle.
    We were supposed to meet, Senator Cochran, you and I and 
other members of the delegation were supposed to meet. At the 
last minute you were unable to do that, and I understand that. 
You sent Mr. Letmon Lee, who has been a great public servant, 
and we had a great meeting. I hope you will agree that we need 
to look at this what I call self-perpetuating cycle. When the 
dredging isn't there, fewer goods and less valuable goods come 
through. It becomes a cycle.
    So I hope you will agree that you and I and Senator Cochran 
and others need to have that meeting and talk about this, and 
let's try to resolve that for the sake of jobs and the economy.
    Ms. Darcy. Yes, sir.
    Senator Wicker. Then let me just ask you, I understand no 
question has been asked about plans for sequestration yet. 
Again, I touched on this in our opening statement. Is it true 
that it will mean 8.2 percent across the board to the Corps? I 
will ask this of both witnesses. What contingency plans do you 
have? I hope at this late date we can stop it. We need to make 
the budget savings. But I think we can make them a lot smarter 
someplace else in the budget than in DOD.
    So what are your plans? I am hearing, Madam Chair, that 
there are people on this Hill that are getting a little more 
relaxed about sequestration. I continue to believe it is going 
to be an utter disaster. So what plans do we have in the event 
that this does take place and takes place soon?
    Ms. Darcy. Senator, if we are faced with sequestration, we 
are going to have to do across-the-board cutbacks in all of our 
program areas. We will have reduced funding for dredging, we 
will have reduced funding for flood protection, we will have 
reduced funding for ecosystem restoration. We have to take it 
from every program, and every project is going to have to take 
that percentage off the top.
    Senator Wicker. Have you talked at all about sending a 
request upstream in the bureaucracy for prioritizing the cuts? 
Would you like the flexibility to do that?
    Ms. Darcy. Perhaps that would be good. But right now, it is 
an across the board, and that is the sequestration number, and 
the law tell us that is what we have to do.
    Senator Wicker. General Bostick, are there any contingency 
plans that are just waiting for this axe to fall?
    General Bostick. I think, Senator, that across-the-board 
cuts are something that we are going to have to live with, as 
the Secretary mentioned. But I think the way our moneys are 
prioritized now in flood risk management and in navigation, we 
will at least keep the bulk of our funds in the areas that are 
high priority to the Corps and to the Nation in life safety and 
in those areas.
    We would prefer not to have across-the-board cuts, but that 
is the way it is. I think the funding the way we have it now is 
going to help mitigate that.
    The other concern we have is for our people, and to make 
sure that technical expertise and the folks that have done all 
the great work for this Nation over many years, that we are 
able to retain the kind of technical expertise that can 
continue on with the mission. We will work that internally.
    Senator Wicker. Thank you very much. The Chair is concerned 
about the time. I have 30 seconds left. Let me just say, back 
to one of the first points I made, we want the inland waterway 
system to be part of a solution to the President's goal that we 
increase American exports. That being the case, I just would 
hope, Secretary Darcy, that the Administration would help us to 
do that by making more realistic funding requests that actually 
match the needs for flood control and navigation on projects 
like the Mississippi River and tributaries.
    With that observation, I will let it go at that and thank 
both of you.
    Senator Boxer. Thank you, Senator.
    Let me assure you that as Chairman of this committee, I 
just wrote an op-ed piece that ran in CNN about how to avert 
this ridiculous sequester. It is dangerous, it is dangerous to 
everything it touches. They can't have contingency plans, they 
have to follow the law. We didn't put into the law, none of us, 
a contingency plan. It is what it is.
    So unless we act, we can't look at them to save us from 
ourselves. Just my point here. We just need to come up with a 
way, and I have to commend my colleague, Senator Whitehouse, 
because he has come up with a list of ways that we can avert 
this thing that is painless, truly. I hope you will take a look 
at it. And if there is some agreement, let's get it going 
across the aisle here.
    Senator Wicker. In 15 seconds?
    Senator Boxer. Yes, go ahead.
    Senator Wicker. Let me also observe the House of 
Representatives passed a plan.
    Senator Boxer. Oh, I read it. Oh, I saw it.
    Senator Wicker. Bill Lankford scored it.
    Senator Boxer. You think sequester is bad.
    Senator Wicker. Where is my 15 seconds here, Madam Chair?
    Senator Boxer. You can have 30 seconds.
    Senator Wicker. Let me just say, I look forward to seeing 
bill language coming down from the White House on their 
proposal.
    Senator Boxer. Yes.
    Senator Wicker. We had a general concept a few days ago. 
But at least our brothers and sisters on the other end of the 
building have passed a bill. It is incumbent upon us to take up 
some language, vote on it, trying to work it out.
    Senator Boxer. I couldn't agree with you more.
    Senator Wicker. And some language from the Administration 
would help also.
    Senator Boxer. I couldn't agree with you more. What I would 
say is, our brothers and sisters on the other side of this 
Capitol, it was a Republican plan, hurt their brothers and 
sisters in the community. It is, I call it Plan C, Calamity. It 
didn't do a thing to solve the problem, it just took a bunch of 
horrible cuts and in light of Eric Cantor's point yesterday 
that he now values education, it killed education, he said he 
valued jobs, it killed jobs. He said he valued innovation, it 
killed innovation. And he said he valued health care, and it 
kills that.
    So all I am saying is, let's not look over to our brothers 
and sisters over there. Let us come together, because recent 
history shows we can do it in a way that bridges this divide. I 
hope that we can.
    I want to see something from the President, I want to see 
something from us. I am with you on that. I agree with you, 
this is a calamitous path we are going down in terms of this 
sequester. I wanted you to know that I am not one that is 
getting comfortable. I am getting more uncomfortable by the 
minute on it.
    Senator Wicker. Thank you. Somehow I don't think I am going 
to get the last word in on this, but I do thank you.
    [Laughter.]
    Senator Boxer. Well, you know, elections have consequences.
    [Laughter.]
    Senator Boxer. I ask unanimous consent to enter the 
following statements into the record: Senators Tom Udall, 
Landrieu, Inhofe, Association of State Flood Plain Managers, 
American Society of Civil Engineers, National Wildlife 
Federation, a letter from Senator Cardin and other members to 
Secretary Darcy. So we will put those in the record.
    [Referenced statements follow. Not all statements were 
received at time of print.]

                     Statement of Hon. Tom Udall, 
               U.S. Senator from the State of New Mexico

    Good morning and welcome, Madam Secretary.
    Last week, I took the opportunity to highlight three issues 
that are of importance to New Mexico. I'm glad we have the 
opportunity to follow up again today to discuss them further.
    The issues I raised were:
    (1) The potential for flooding in our major city--
Albuquerque, New Mexico;
    (2) My continued support for the Rio Grande Environmental 
Management Program; and
    (3) My concern over the current status of the project in 
the Rio Grande Floodway, San Acacia to Bosque del Apache.
    These Army Corps projects along the Rio Grande are 
different from many of the other areas of the Nation, because 
the Corps is not the only Federal agency with projects along 
the river.
    Like many other areas of the West, they need to work with 
the Bureau of Reclamation which is supplying water for 
irrigation, while you are trying to prevent flooding. Both 
agencies are also charged with maintaining enough environmental 
flows to support a living river for aquatic species.
    Water is the lifeblood of the Southwest and we have seen 
its availability dramatically affected by extreme climate 
events, making these agencies' jobs even harder.
    Temperature increases can make droughts like our current 
one even more severe.
    In addition, many scientists tell us that warming is likely 
to mean not only greater droughts in the Southwest, but also an 
increasing risk of flooding from extreme rainfall events.
    So when we do get rainfall, it is often in the form of 
monsoons and extreme rain events that have the potential for 
flash flooding and devastating neighborhoods, small towns, and 
scenic areas.
    Water supplies are projected to become increasingly scarce, 
calling for trade offs among competing uses and leading to 
conflict between competing sectors and neighboring States.
    In the face of these challenges I'm calling on parties to 
seek cooperation, not conflict.
    As a Federal agency with a lot of expertise, the Army Corps 
has a responsibility to help foster that cooperation, both 
among Federal agencies and with various State and local 
entities.
    This is a very critical time for New Mexico and the 
Southwest to update the way we manage our water resources.

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Boxer and Ranking Member Vitter, for 
holding this hearing and allowing committee members to receive 
testimony on the implementation of Corps of Engineers' water 
resource policies. I also would like to thank Assistant 
Secretary Darcy and Lieutenant General Bostick for testifying 
before us again this morning, as well as the four gentlemen who 
will be joining us during the second panel--this committee 
greatly appreciates you and relies on your expertise, so thank 
you very much for being here.
    It is crucial for the next Water Resources Development Act 
to authorize the necessary maintenance and updates to the 
infrastructure of the United States. I look forward to working 
with Chairman Boxer, Ranking Member Vitter, and their staffs in 
order to pass this important piece of legislation.
    To the witnesses, I look forward to talking to you about a 
few possible reforms we should consider. The provisions that 
expedited project delivery for Highway and Transit projects 
were a hallmark of the MAP-21 legislation that passed through 
this committee in 2012. Any reforms to Corps policies should 
ensure a streamlined process where we can cut through the red 
tape, avoid bureaucratic messes, and minimize the steps taken 
to ensure the most effective use of existing resources. More 
efficient and transparent policies will allow for greater 
regulatory certainty on Corps projects.
    We should also look to better utilize public-private 
partnerships. One of the most frequently discussed ways to 
leverage non-Federal investment is through public-private 
partnerships. With these partnerships, State or local 
governments enter into an agreement to raise private capital 
and transfer risks to the private sector, making challenging 
and unaffordable projects possible. Corps projects are woefully 
underfunded with a backlog of $60 billion in authorized 
projects, yet only a $5 billion yearly budget. These 
partnerships are a way to unleash an enormous amount of private 
investments in public infrastructure.
    One such project is the Arkansas River Corridor Master Plan 
in my home State of Oklahoma. WRDA 2007 authorized $50 million 
to carry out ecosystem restoration, flood damage reduction, and 
recreation components of the Plan. Cooperative efforts among 
the Corps, Tulsa County, the city of Tulsa, and Indian Nations 
Council of Governments (INCOG) are necessary to implement it.
    Another important project includes chloride control at the 
Red River. I have been working with the Tulsa District Office 
and the local Lugert-Altus Irrigation District in order to 
provide new drinking water supplies, increased agricultural 
irrigation in the southwestern Oklahoma area, and improved 
downstream water quality.
    Our Nation's system of inland waterways, highways, and 
coastal ports are our pathway to trade and economic prosperity. 
It is vitally important that we implement responsible policies 
in order to best utilize this system. Again, I thank the 
witnesses and look forward to their testimony.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Boxer. And now it is my pleasure to call on Senator 
Carper.
    Senator Carper. Thanks. I will just be very brief, and one 
comment before I ask my questions. I think the solution to this 
challenge is not easy. But there are three things we need to 
do. One, we need more revenues, we need to be closer to where 
we were when we had four balanced budgets in a row. I think 
revenue as a percentage of GDP, we are between 19 and a half 
and 20 and a half percent, last year they were down around 15 
and a half, 16 percent.
    The second thing is we have to look at our entitlement 
programs and figure out how we can save money in those 
entitlement programs, especially in health care. And not so 
savage older people or poor people, but to find ways to get 
better health care results for, in some cases, less money. 
Actually, there are some really good ways to do that, and it is 
humane. And while we are doing that, to preserve those programs 
for the long haul.
    But the third thing we have to do is look at everything we 
do, everything we do, and just ask this question--how do we get 
a better results for less money, or better result for the same 
amount of money? So I think those are the three things we need 
to do. My hope is that at the end of the day we can come to 
agreement around that kind of proposal.
    Setting that aside, and this actually is a pretty good 
lead-in to my question. One of the projects that you all have 
been working on for several years now is the dredging of the 
Delaware River up past Delaware, Pennsylvania, New Jersey. And 
they started up north first, and they are working their way 
south, as you know. I think maybe by the end of this fiscal 
year we will be down to the southernmost reach of the dredging 
operation.
    I have a concern, and I am sure it is shared by our 
colleagues, certainly shared by my colleagues in Delaware, our 
Governor, colleagues in Pennsylvania, their Governor. The 
problem we saw with our colleagues in New Jersey, about the 
prospects of the Administration asking for funding for this 
continued dredging in the next fiscal year. Given the 
uncertainly of sequestration, the uncertainly of the budget 
process, I just wanted to ask, I just want to make sure that 
this is one that is on your radar screen. It is important not 
just to our State but probably much more important to 
Pennsylvania and I think to New Jersey. I just want to bring it 
to your attention.
    It would be ironic, a cruel irony, if at the end of the day 
we had spent all that money on dredging the northern part of 
the Delaware River, down to the Delaware Bay, and got that 
dredged to 45 feet in this environmentally sensitive way, and 
then found ourselves at the southern part where we have to 
leave it at 40 feet. The Panamax ships couldn't get in to take 
advantage of all the investment that has been made in the 
northern part of that channel.
    Could you just make a brief comment on that, Madam 
Secretary?
    Ms. Darcy. Yes, Senator. I believe we did have funding in 
the 2013 budget for the deepening of the Delaware. You are 
talking about deepening, right, not maintenance dredging? The 
deepening project?
    Senator Carper. That is right.
    Ms. Darcy. For that, and of course we are still in the 
process of putting together the 2014 budget. So we will be 
looking at that, along with every other project in this Country 
that is competing for limited dollars.
    Senator Carper. We have all heard the saying, probably used 
the saying, don't throw good money after bad. We have actually 
spent the first part of it pretty wisely. I would hate to have 
wasted it by leaving the southern part of the channel not 
dredged and the rest of it dredged, so it would be of no use to 
anybody. That would be unfortunate.
    The other question I have is, if I could, Madam Secretary, 
I am a strong believer that when it comes to storms, an ounce 
of prevention is worth a pound of cure. With rising sea levels 
and stronger, more frequent storms, we need to focus on how we 
can mitigate against storm damage before it occurs. I recently 
succeeded Joe Lieberman as chairman of the Senate Committee on 
Homeland Security and Government Affairs. As part of my 
responsibility, I have oversight of FEMA, we have oversight of 
FEMA in that committee.
    In the wake of Hurricane Sandy, I have had some questions 
about the degree to which the Corps and FEMA are coordinating 
with each other as well as States and towns on a variety of 
mitigation activities. I was grateful to Senator Boxer for 
including provisions on extreme weather preparedness in her 
WRDA draft last year. And there is my question.
    Would you just take a minute and share with us your views 
on what can be done to increase the Army Corps' capacity to 
help mitigate against storm damage, and how we can ensure those 
efforts are well coordinated with FEMA's activities and actions 
in both the State and the local level?
    Ms. Darcy. Thank you, Senator. I am not sure if you were 
here when I was answering Senator Gillibrand's questions about 
Superstorm Sandy.
    Senator Carper. I missed most of her questions.
    Ms. Darcy. We within the Corps and FEMA and the other 
Federal agencies, not only through the study provisions that we 
were directed to under the supplemental in response to Sandy, 
but with Secretary Donovan's Sandy Response Task Force, we are 
working with all the other Federal agencies to come up with a 
Federal response, not only for mitigation but also for how 
resiliency is going to be built into our projects in the 
future. So mitigation is sort of at the forefront of how it is 
we can do this.
    I think the projects along the Delaware shore during 
Superstorm Sandy can show what those kinds of resilient 
projects can be, the sand dunes and the vegetation held up 
pretty well.
    Senator Carper. They saved hundreds of millions of dollars, 
hundreds of millions. Thank you so much.
    Senator Boxer. Thank you. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Thank you, General 
and Secretary.
    I am bedeviled by a situation that we have in Rhode Island. 
In March 2010, I came through the receiving dock of a Rhode 
Island manufacturing company in an inflatable boat. The reason 
I did was that we had record flooding, in some cases going 
beyond the 500-year level. We are obviously going to see a lot 
more of that as we dump more and more carbon into our 
atmosphere and we create the setup for continuing worse storms.
    The company is called Hope Global. It has been in Rhode 
Island since 1883, I think. It is a great company, it is 
growing, it employs lots of people, it exports to China, among 
other things. So it is doing good work for our awful balance of 
trade. And it survived in a very competitive environment.
    But it is susceptible to flooding, as my visit to it in an 
inflatable boat proved. These kinds of things can happen again.
    So this business has to make hard decisions about 
relocating. And of course, since it employs a lot of people and 
it is a very successful business, there is competition. People 
are reaching out to the CEO and saying, don't stay there in 
that flood plain, come visit us, come move to our State.
    We have been working with the Army Corps trying to solve 
that flood plain issue and figure out what can be done to 
protect this company in its existing site. And the State has 
ponied up the money for the feasibility study. And the problem 
is that with all that done, we have no idea of what is going to 
happen. You guys have, I think, a $62 billion backlog. We are 
in that big murky backlog some place. We have been unable to 
develop much in the way of information about where your 
priorities are in the backlog.
    So when we have a CEO saying, I need to make decisions 
here, and we can't help in any respect because there is no 
transparency into how the Corps prioritizes the backlog, it 
creates problems and it create effects out in the real world 
where people actually need an answer on a date.
    So I hope that we can find ways, as we are working on the 
new WRDA bill, to try to get a little bit of sunlight into that 
process, so that people like Hope Global can at least know 
where they stand. The worst answer is no answer at all. What we 
are stuck with is no answer at all. So I guess my question is, 
do you have ideas for how to clarify that so that people can 
have a sense of where in the $62 billion they stand, and will 
you work with us on trying to get that fixed in this 
legislation?
    Ms. Darcy. Yes, Senator, because I think that we are all 
looking at the backlog in a way that we have to look at how we 
are going to manage the assets that we have, and what is the 
best Federal investment for what is in the backlog. If there is 
a study or a project that has been there for a long period of 
time with no local support or no Federal funding, it doesn't 
make sense for us to have that even on the books any longer. 
Currently, under current law, the deauthorization process, if a 
project doesn't get money in 5 years, then it gets on the 
deauthorization list. But I think your question is, OK, that 
big list out there, who is on it, who is at the top and who is 
in the middle and how do you decide that.
    Senator Whitehouse. Other people count on those decisions, 
and they need to know. We can't just have this happen in sort 
of a bureaucratic limbo that may suit us in Congress and it may 
suit the Administration. But the real people who are out there 
depending on these projects are hurt by it.
    Ms. Darcy. And they have to make investment decisions.
    Senator Whitehouse. Yes. And they can't.
    The other question that I have has to do with, and I will 
make it for the record, time is short, under the 2007 WRDA Act, 
the Corps was encouraged to focus on natural systems and 
natural buffers and defenses. And I guess I would ask as my 
question for the record, you can get back to us in writing, how 
many projects approved or understudied by the Corps since the 
2007 WRDA bill have or have had as their final or recommended 
alternative a plan that primarily uses non-structural and-or 
ecosystem restoration approaches to solve the problem being 
addressed by the project? So if you could take that as a 
question for the record.
    Ms. Darcy. I am not sure what the universe is, but I know 
we can get you the number.
    Senator Whitehouse. I would appreciate it. Thank you, 
Chairman.
    Senator Boxer. Thanks, Senator.
    I want to talk about how we are going to deal with the rest 
of the hearing. I want to thank so many people for waiting a 
long time. I think what this shows us is that our colleagues 
are very interested in this. And that is a good thing. I want 
to say to the Lieutenant General and to the Secretary how 
appreciative we are of your patience with us and all these 
questions.
    So here is what we are going to do. I am going to hand the 
gavel over to Senator Carper. When he leaves, he will hand it 
over to Senator Vitter. Senator Vitter and I have a deal, he is 
definitely going to repeal any environmental laws while he has 
the gavel.
    [Laughter.]
    Senator Vitter. We are just going to clarify.
    [Laughter.]
    Senator Boxer. So I feel very comfortable.
    So anyway, here is what is going to happen. I want to ask 
if Mr. Johnson, Richard, would you raise your hand? I want to 
thank you so much for being here. Richard is a very important 
person to us, he is the Executive Director of the Sacramento 
Area Flood Control Agency. In his testimony, he is going to 
underscore the issues I raised, the levee vegetation, the 
experience that we have there which we are so, we have kept 
ahead of the floods so far. We have had our real serious 
problems, but we know we are in danger.
    If we are going to keep ahead of this, the worst of it, we 
have to keep on moving. It is a pleasure always to work with 
the various agencies in the State, plus Senator Feinstein, and 
in this case Congresswoman Matsui and others. He will talk 
about the Sacramento experience, he will also talk about the 
crediting provisions, how do we know when to move forward at 
home, will the Corps please let us know in a timely fashion if 
what we are spending at the local level will be credited to us. 
This is serious business. And in the new WRDA, we are going to 
take these issues on.
    I know that Senator Vitter has more questions. Obviously he 
has had to deal with a lot of serious matters. So I have agreed 
to give him the time for a second round, and then Senator 
Carper, the rest of the hearing is up to you. I will turn this 
over and I thank everybody.
    Senator Carper [presiding]. Senator.
    Senator Vitter. Thank you, Mr. Chairman. I will be brief, 
covering two very important issues.
    After my concern that I expressed earlier about the Corps 
ignoring mandates, my second biggest concern is when the Corps 
habitually misses and reasonable deadlines. As you all know, 
because we have talked about it quite a lot, in my world, the 
best-worst example of that is the Morganza to the Gulf Project. 
This is the basic history of that project since 1992.
    So we have a history since 1992, we still haven't started 
construction. It involves two authorizations where the Corps 
has basically missed deadlines or allowed other changes to 
happen. So then the project is deauthorized.
    First, there was a contingent authorization, if the Corps 
produced a chief's report by a certain date. The Corps missed 
the deadline. Second, in the last WRDA, I secured an 
authorization and 2 months later was informed by the Corps, oh, 
too bad, costs have gone up and you just broke your 902 limit. 
Two months after we passed the language, after we had been 
talking to the Corps about this, without hearing boo about the 
cost issue, 902 limit issue, before that.
    Most recently, General, as you know, we have missed another 
deadline for December. We are shooting for a new report on the 
project for mid-year. So my first question specific to the 
project, are we on track to get that new report mid-year?
    General Bostick. Yes, Senator, we released a post-
authorization report in January. In parallel with that, we are 
doing a risk-based assessment through our risk assessment 
center. We feel the preliminary feedback that we are getting 
from that is going to allow us to reduce the cost that came out 
when we talked last, the $10.6 billion. And based on where we 
are now, we believe some time in the mid-summer timeframe, we 
should be able to produce the report.
    Senator Vitter. Thank you. As you know, General, that is 
essential, or else this history continues with a third miss.
    Madam Secretary, in cases like this, do you think there 
should be any consequence to the Corps for missing major and 
reasonable deadlines?
    Ms. Darcy. Senator, I think this shows that we need to look 
at the way we are doing some of our planning processes and the 
way that they are implemented. I think that we are looking 
internally as to how we can better improve our planning 
process. This is an example of ways we can look to, especially 
the additions, and as you said, this has been in the works 
since 1992. It is now 20 years later and here we are with no 
project.
    Because of many things, including Katrina and design 
changes and there are reasons, but I do think that we need to 
be accountable. We will strive to do that, especially in this 
case.
    Senator Vitter. I appreciate that. We are looking at those 
accountability issues for everyone too, for the next WRDA. I 
just think in the real world, negative consequences for missed 
deadlines are part of accountability. In this case, the Corps 
is essentially rewarded and not penalized. Because you don't 
have to move forward and spend money. So in a sense, in terms 
of the bureaucracy, you are rewarded for these missed 
deadlines, not penalized.
    The second issue, which I will submit for the record, is 
about wetlands mitigation and the Modified Charleston Method as 
it is now applied in the New Orleans district. As you know, 
that has been extremely onerous and costly. I would submit two 
questions regarding that for the record. First, do you think it 
is appropriate that different districts use very different 
wetlands mitigation standards? In my world, the Vicksburg 
District next door uses a different standard that has lower 
cost, so that St. Tammany Parish, a major county or parish in 
Louisiana, is split between the two districts. So two very 
different standards, two very different sets of cost.
    The second question is, do you think it is appropriate that 
local government and private folks have to use this new very 
expensive Modified Charleston Method, but the Corps, in doing 
its important post-Katrina work, does not? You all essentially 
exempted yourselves from the higher, more expensive standard. 
So those are my two questions submitted for the record.
    Ms. Darcy. Thank you, Senator. We will get back to you on 
those.
    Senator Vitter. Thank you all very much.
    Senator Carper. Secretary Darcy and General Bostick, 
Senator Lautenberg just joined us and he has a question or two. 
Then we will excuse you and bring on our second panel.
    Senator Lautenberg. Thanks very much, Mr. Chairman.
    And thank you both for the work that we are reviewing 
today. The Corps is such an important agency that I don't think 
at times we understand the contribution that the Corps 
engineers do for us. So my hat is off to you. I just wanted to 
say that what we learned from Sandy was not a good lesson. But 
it is one that ought to stick with us for a long time.
    When you look at things, let's be clear: our changing 
climate means severe storms are going to be more and more 
common, despite the doubters. And that mean the new WRDA bill 
must make it permanent policy to build these infrastructure 
projects stronger than before.
    During the Sandy period, New Jersey also saw the limits of 
our outdated water infrastructure when two water treatment 
facilities were damaged, one plant leaking millions of gallons 
of sewage into Newark Bay. So we need smart financing programs 
to ensure our clean water infrastructure is modern and 
effective.
    I proceed to ask if we can count on you, Madam Secretary. 
The Superstorm Sandy supplemental appropriations laws includes 
vague language that could lead to some communities paying a 35 
percent cost share if their planned Army Corps projects aren't 
considered to be ongoing. Now, there may be some mystery 
surrounding that that I am not familiar with. But it seems like 
an unfair kind of a proposal. Shouldn't local governments with 
projects that are ready for construction be eligible for a 
Federal full cost share?
    Ms. Darcy. Senator, I believe the language in the bill for 
ongoing construction, that that would be 100 percent Federal, 
that within the Administration we are trying to make a 
determination of what would be an ongoing project, whether it 
is a shovel in the ground or if it is a study on the books that 
is ready to go.
    Senator Lautenberg. We have seen what happened in the areas 
that accidentally I would call it, General, where there were 
mitigation opportunities just because we did some replenishment 
or put in some berms here and there. We found out that in those 
communities, and New Jersey has a substantial shoreline for the 
size of the State, they fared fairly well.
    So when we have an opportunity now to look ahead, we should 
have the funds, the resources to get this job done and include 
serious mitigation programs where we have a chance. As the 
planet continues to warm, events like Superstorm Sandy will 
become more frequent. How is the Army Corps adapting its 
project Development to reflect this new reality?
    Ms. Darcy. Senator, we have been, for the last several 
years, actually, looking, part of our policy guidance and 
developing new plans for projects has to consider sea level 
change in every project that we look at. Because it is going to 
happen and we need to be able to mitigate for it, or else be 
able to build a project that will be resilient to that sea 
level change.
    We are building that not only into our planning, but also 
within the Administration, we are looking at resiliency 
criteria for building back projects as a result of Superstorm 
Sandy.
    Senator Lautenberg. So you understand, and by the way, you 
had a good training ground to understand these problems. You 
used to sit around with the group up here and you did very good 
service there. We know that you will here as well.
    Many of these projects were inadequate before the storm 
hit. Fortunately, we were successful in allowing funding for 
Sandy relief to be used to improve projects. Not just to 
rebuild them as they were. And shouldn't the Corps be given 
permanent authority to improve projects following these future 
natural disasters?
    Ms. Darcy. Senator, we have current authority under 216 to 
reevaluate an existing project. For example, if a shore 
protection project outside of Avalon, New Jersey may have had a 
certain level of protection in its authorized purpose. But in 
looking at it now, post-Sandy, would it make sense to have a 
different scope of project, would it make sense to have a 
different height, would it make sense to have a different 
footprint? We can do that evaluation under current authority. 
If that evaluation determined that yes, there should be a 
change made to that project, then it would need to be a new 
authorization or a change to the existing authorization.
    Senator Lautenberg. Coastal communities and businesses in 
New Jersey were devastated by Sandy. But those projects 
protected by Army Corps programs fared much better than those 
that were not, even in places that were thought to be 
particularly vulnerable, but where we had done work along the 
way. Most of the homes there fared very well.
    However, the beaches and dunes that protected many towns 
were wiped away by the storm. Will the Corps expedite the 
construction of these projects so the coastal communities are 
protected in time for the hurricane season?
    Ms. Darcy. Senator, under the supplemental, we are in the 
process of looking at the projects that we will restore to pre-
storm conditions. We have about 16, I think, right now, that we 
are looking at doing that for. Hopefully that will be able to 
be accomplished before the next storm season.
    General Bostick and I flew over the New Jersey coast the 
day after Superstorm Sandy. We saw proof of what you just said, 
the community of Avalon, which had a Corps of Engineers beach 
replenishment project, the homes there were undamaged. We went 
a mile up the coast that did not have a project, you could see 
the difference. I think that in looking at that and looking at 
also what we have to do, I think, in places like that, have to 
look at the projects as a system, a systems approach to what it 
is we are protecting and what damages we can do as a system 
throughout not only New Jersey but as a coastal system, not 
only for hurricane protection but these new kinds of storms, we 
are seeing surges in addition to hurricanes. So that is what we 
have to be able to put into our planning process and our 
evaluation of what kind of project is going to work or provide 
what kind of protection in the new kinds of storms that we are 
seeing.
    Senator Lautenberg. We had bad luck because we invited 
several Senators from other States to take a look and 
understand that it wouldn't be unlikely that one of those 
States or several of them wouldn't be affected the same way we 
were. Unfortunately, it was a helicopter trip down the coast, 
and the fog was so think we couldn't take off. I didn't arrange 
it, I promise you.
    Thanks very much, Mr. Chairman.
    Senator Carper. You are quite welcome. Thank you.
    We are going to excuse our panel. Madam Secretary, General, 
thank you both very, very much for your presence today, your 
responses and your willingness to respond further to questions 
that are being asked in writing and for your leadership. Good 
to see you both. Thank you.
    And as Secretary Darcy and General Bostick leave, we will 
welcome our second panel.
    Gentlemen, welcome. It is great to see one of you for the 
second time today, Secretary O'Mara, good to see you, and Mr. 
Johnson, Mr. Turner, Mr. Graves, we are happy that you could be 
with us today.
    I am going to take just a moment to introduce Secretary 
O'Mara, then turn the gavel over to Senator Vitter to introduce 
a couple of folks from his neck of the woods, then we will 
start the panel. I regret that I have a luncheon engagement 
that I am supposed to be at in about 5 minutes, so I am not 
going to be able to stay for nearly as long as I would like to.
    I have read your testimonies, and especially appreciate 
your testimony, Mr. Secretary.
    Collin O'Mara is the Secretary of Delaware's Department of 
Natural Resources and Environmental Control, in my State. He is 
the chief steward of Delaware's natural resources and leads our 
State's efforts to improve air quality and public health to 
ensure clean water, remediate contaminated sites, reduce 
impacts from flooding and extreme weather events, expand 
recreational opportunities and restore wildlife and fisheries 
habitat. He has a lot going on, it is a great job. And he does 
a wonderful job of meeting those responsibilities.
    He also leads the State's Division of Energy and Climate 
Change, where he works to secure cleaner, cheaper and more 
reliable sources of energy. Since joining the Administration, 
he has worked to modernize Delaware's energy sector, 
spearheaded a range of innovative outdoor recreation and 
conservation initiatives, and led the largest investment in 
environmental and water resources infrastructure in our State's 
history. All these initiative are focused on preparing Delaware 
for current and emerging environmental and climate changes.
    When Governor Jack Markell appointed Secretary O'Mara in 
2009, he was the youngest State cabinet official in the Nation. 
I remember saying, Senator Vitter, when Jack Markell, the 
Governor, nominated Collin to serve, what is he doing 
nominating a guy 29 years old? And somebody reminded me that 
Joe Biden was elected a U.S. Senator from Delaware at 29, and I 
was elected State treasurer at 29. So I said, oh, I think he is 
probably ready for those responsibilities.
    Collin, it is great to welcome you back to this hearing 
room. We have been here a number of times, and we are grateful 
you can do all those responsibilities, provide leadership on 
regional and national issues as well, and also somehow convince 
your bride to move to Delaware and to bring a little girl into 
the world about 1 year ago this week. So for all that, we 
congratulate you and thank you for your stewardship and the 
great job you are doing.
    With that, I am going to yield to Senator Vitter, and he is 
going to run the show from here.
    Senator Vitter [presiding]. Thank you, sir, and I also want 
to welcome the Louisiana witnesses we have with us.
    Garret Graves is currently the Chair of the Coastal 
Protection and Restoration Authority of Louisiana, and 
Executive Assistant to the Governor for Coastal Activities. The 
CPRA was established after Hurricane Katrina as the State's 
leading agency for hurricane protection, flood control and 
ecosystem restoration, as well as other community resiliency 
efforts.
    Garret's efforts to restructure and streamline our coastal 
programs and agencies has resulted in increasing project output 
by more than 500 percent. The Authority currently oversees a 
$17 billion coastal resiliency hurricane protection and oil 
spill recovery program. Garret was also involved, and is, on an 
ongoing basis, on recovery from the BP disaster. Before his 
work in the State, he served many members up here very well, 
including myself, Ted Stevens, Bill Tauzin and John Breaux.
    Robert Turner is with us. Bob is a registered professional 
civil engineer with 30 years of experience in the field of 
engineering. He served as the regional director of the 
Southeast Louisiana Flood Control Authority East since October 
2007. That is the local flood control authority, one of the two 
in the New Orleans area, that is very involved in all things 
coastal protection and hurricane protection in that area. Bob 
has extensive background in flood protection and public works, 
including serving as the executive director of other levee 
districts and similar organizations. He is a graduate of 
Louisiana Tech University and a member of the American Society 
of Civil Engineers and the American Concrete Institute.
    I also want to acknowledge and welcome Richard Johnson. 
Senator Boxer introduced Richard and alluded to him. Richard is 
Executive Director of the Sacramento Area Flood Control 
Authority.
    Thanks to all of you, welcome and why don't we go in turn, 
starting with Richard.

STATEMENT OF RICHARD M. JOHNSON, EXECUTIVE DIRECTOR, SACRAMENTO 
                   AREA FLOOD CONTROL AGENCY

    Mr. Johnson. Good afternoon, Ranking Member Vitter. I 
appreciate the opportunity to be here. My name is Rick Johnson, 
I am the Executive Director of the Sacramento Area Flood 
Control Agency.
    I would like to just summarize my written comments right 
now. First, we are very encouraged and appreciative of the 
bipartisan efforts and commitment to move WRDA this year. We 
are fortunate that Sacramento's flood issues are being 
recognized by leaders like Chairman Boxer, Senator Feinstein 
and Congresswoman Doris Matsui. We are grateful for that strong 
support.
    In recent years, the Corps has reviewed its various civil 
works policies regarding flood protection. One of the more 
controversial issues emerging is the Corps' implementation of 
policies relating to woody vegetation on levees. This is 
especially important in the central valley of California, where 
there is significant remaining vegetation adjacent to and 
sometimes on the levees. Our ongoing effort to strengthen and 
improve 42 miles of levees, protecting the Natomas Basin in 
North Sacramento, is an example of this.
    Recognizing the complications associated with strict 
compliance to the Corps' vegetation policy, we developed a plan 
involving adjacent setback levees where they were feasible. 
That design was approved by the Corps. However, there was one 
section of levee where we had to propose a different design and 
sought a variance from the Corps which was not approved. 
Looking forward, we will face similar challenges in other parts 
of our system.
    The Corps' concept of addressing the worst first risks will 
be important in this effort and elsewhere in the State. The 
concept is that the most at-risk areas and factors be given 
high priority for resolution, especially when funding is 
constrained. We believe a wise application of this worst-first 
concept is essential in successfully implementing the 
vegetation policies. We support Section 2017 of the Chairman's 
WRDA discussion draft, which addresses Corps' policies on 
vegetation management. This is a positive step to assure a 
flexible and collaborative process, especially taking into 
account regional factors.
    Another important challenge facing the Corps is the notion 
of credit for work accomplished by State and local interest. 
State and local governments can often do advanced work on a 
project, thereby accelerating the schedule and lowering its 
cost, and should not be penalized for those efforts.
    I am pleased to say that the Corps has been supportive and 
reasonable in its negotiations with us on past projects. I will 
use the Natomas project again as an example. For this project, 
the Corps approved four applications granting credit under its 
Section 104 authority from the 1986 WRDA. As a result, we have 
been able to complete reconstruction of the worst 18 of the 42 
miles of levees, while the Corps completed their efforts on the 
chief's report, thus allowing immediate risk reduction to more 
than 100,000 people.
    Though our experience regarding credits was favorable, the 
Corps has recently revised its policies, increasing the 
challenge that non-Federal partners face in obtaining credit 
for their work. Facilitating non-Federal efforts and allowing 
flexibility should be addressed in WRDA. Sections 2008 through 
2011 of the Chairman's draft address various aspects of the 
Corps' crediting policy, and we support the positive steps 
taken in these provisions. We especially are supportive of the 
language that addresses credits and access of required cost 
sharing amounts for a project.
    I would like to briefly address another provision in WRDA. 
Section 1002 is vital to the Corps' water resources program and 
we commend the committee for its creative approach to 
authorizing projects. As the Chairman is well aware, we in 
Sacramento have a very strong interest in this provision. Along 
those lines, we offer our sincere appreciation to Senator 
Feinstein and to Chairman Boxer for recently introducing Senate 
Bill 197, the Natomas Basin Flood Protection Improvements Act 
of 2013. This legislation and Congresswoman Matsui's bills, 
H.R. 135 and H.R. 136, are important acknowledgments of the 
flood control needs in Sacramento.
    In closing, Senator Vitter, thank you for allowing me to 
appear before you today. We also appreciate the professionalism 
and courtesy of your respective staffs. I will be happy to 
respond to any questions.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
    Senator Vitter. Thank you very much, Rick.
    Now, Bob Turner.

 STATEMENT OF RICHARD A. TURNER, P.E., CFM, REGIONAL DIRECTOR, 
         SOUTHEAST LOUISIANA FLOOD PROTECTION AUTHORITY

    Mr. Turner. Thank you, Ranking Member Vitter.
    For 7 years, our flood authority has been fully engaged 
with the U.S. Army Corps of Engineers and the Louisiana Coastal 
Protection and Restoration Authority during the planning, 
design and construction of the Hurricane and Storm Risk 
Reduction System for the metropolitan New Orleans area. So 
today I would like to share with you some observations and 
recommendations from the perspective of a local levee owner who 
has been in the trenches working with the Corps throughout this 
historical civil works project.
    There are clear indications that in the years since 
Katrina, the Corps has made an effort to improve its relations 
with the non-Federal sponsors through a partnering process. 
There can be no doubt that significant progress has been made. 
But in our opinion, there is room for additional improvement, 
particularly when it comes to including the non-Federal sponsor 
in critical portions of the work.
    It is hard to feel like a valued team member when Corps 
policy excludes you from participating in a project's 
alternative evaluation process which is conducted during the 
early planning phases of the design work. Decisions made in the 
AEP set the stage for almost everything else that follows. So 
we believe that policies and procedures should be modified to 
not only allow, but encourage, non-Federal sponsor 
participation in all project AEPs.
    It is hard to feel much like a valued partner when Corps 
policy prohibits you from examining details of negotiated final 
fixed prices for early contractor involvement contracts, even 
though the non-Federal sponsor must pay 35 percent of that 
final negotiated price. So again, we think Corps policy needs 
to be adjusted here.
    The independent external peer review process that was a 
result of language in WRDA 2007 I think needs some additional 
work. Much of the value of an IEPR is lost if the reviewer's 
comments on designs are not resolved before the designs are 
sent to the field for construction. And to assure independence, 
the Corps should revise existing policy to clearly define the 
role of a non-Federal sponsor in the IEPR process. The non-
Federal sponsor should have the same access to the review 
process and the review panel members as the Corps.
    Requirements placed upon the non-Federal for documenting 
and applying for credit for a work in-kind are extremely 
complex and very confusing. We recommend that the Corps develop 
a single document or guide for the non-Federal sponsor to guide 
us in the collection and presentation of the data necessary to 
support in-kind credits. The document should clearly define 
what is and is not creditable and include examples of 
acceptable submittal packages and suggested templates for use 
in data collection and presentation.
    My authority supports the development of a national levee 
safety standard. The development and use of levee safety 
standards will ultimately provide a means to measure the level 
of risk reduction provided by existing levee systems and 
improve the reliability of future levee projects and help 
communicate the flood risk for those living behind levees. But 
two major factors must be considered as national standards are 
developed.
    First, the standards must be well-founded in the best 
available science and informed by input from levee owners and 
operators and other Federal and non-Federal stakeholders. 
Second, there must be a clear recognition that a one size fits 
all approach is inappropriate. For example, some criteria 
established for levees protecting densely populated urban areas 
should be quite different from criteria used for levees 
protecting low density rural areas. Standards should be 
developed with this in mind and should be structured to allow 
for decisions regarding the selection of project criteria to be 
informed by risk.
    Rising sea levels, coastal erosion and areal subsidence are 
continuing to cause rapid loss of our coastal wetlands and 
barrier islands in Louisiana. We believe that compensatory 
mitigation is necessary when there are unavoidable impacts to 
wetlands, even when those impacts result from levee owners 
acting to fulfill their mission. But 18 months ago, the New 
Orleans District adopted a new method for determining 
compensatory mitigation called the Modified Charleston Method. 
It appears that in its current form the Modified Charleston 
Method will in some cases greatly increase the cost to mitigate 
for unavoidable wetland impacts associated with flood risk 
production projects.
    So we would recommend that the New Orleans District revisit 
and review the ratios and calculations used in that method in 
coordination with the local stakeholders to confirm that they 
are correct and appropriate for use along the Louisiana coast, 
and that they properly take into account any positive impact 
such flood protection projects might have in prolonging the 
existence of wetlands that would otherwise quickly disappear 
due to exposure to wave and storm surge.
    In closing, on behalf of myself and the Board of 
Commissioners of the Southeast Louisiana Flood Protection 
Authority--East, I would like to thank you once again for the 
opportunity to come here and testify before you. We hope the 
information provided will be helpful in your work and we look 
forward to answering any questions you may have and assisting 
the committee in any way that you might find helpful. Thank 
you.
    [The prepared statement of Mr. Turner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Senator Vitter. Thank you very much, Bob.
    Now, Collin O'Mara.

 STATEMENT OF COLLIN O'MARA, SECRETARY, DELAWARE DEPARTMENT OF 
          NATURAL RESOURCES AND ENVIRONMENTAL CONTROL

    Mr. O'Mara. Thank you, Ranking Member Vitter. I would like 
to thank Senator Carper also for having me here today.
    I would like to begin by thanking the committee for the 
incredible support they have provided to coastal States like 
Delaware over the past several years. The 3 million cubic yards 
of sand that was put onto our beaches just prior to Hurricane 
Sandy, in the 12 months before it, prevented hundreds of 
millions of dollars worth of damage for a very small fraction 
of that price. So I just want to thank this entire committee, 
particularly some folks from the delegations in New York, New 
Jersey and Delaware and Maryland that have been working closely 
on storm recovery.
    For Delaware, the work that the Army Corps performed to 
improve resiliency, to improve navigation, to improve wildlife 
habitat, is absolutely critical. Like many States, we have 
found at times working with the Corps and their policies can be 
challenging. We have had our battles over permits and projects. 
But overall, I can say with confidence that the Corps is an 
extremely important partner for our small State.
    It has never been more important for the Army Corps to 
fulfill its mission efficiently and cost effectively as we face 
more extreme weather, more regular flooding, sea level rise. It 
is absolutely critical to improve the resiliency of at-risk 
communities and vulnerable natural resources. The provisions on 
extreme weather preparedness drafted by Chairman Boxer are an 
absolutely key component of this, and we fully support them in 
Delaware.
    We believe that modernizing the Corps' business model and 
rethinking the current way that we approach projects on an 
individual basis would both improve product outcomes but also 
significantly reduce project costs. This includes more 
flexibility to work with State and local governments, as my 
colleagues have mentioned, better coordination with other 
Federal agencies, especially FEMA, the Fish and Wildlife 
Service and even EPA on infrastructure projects, and much 
broader thinking that breaks down the silos within the Corps 
and links projects and corporate benefits of multiple business 
lines.
    There are many ways we can accomplish this. For example, 
many of my colleagues in Delaware and across the region have 
supported a proposal to develop a North Atlantic Coastal Marine 
Management Plan. This would allow the Army Corps' entire North 
Atlantic Division to work with States to develop an integrated 
management plan that is essential for ecosystem needs in 
Delaware and along our neighboring States. Such an approach 
acknowledges that our coast and coastal waters operate as a 
system and should be treated like one when prioritizing 
projects.
    A similar systems-based approach could also help the Corps 
maximize benefits between business lines. Right now, the Army 
Corps has three separate lines of business: navigation, flood 
and coastal storm damage reduction and environmental 
enhancement. The Congress has traditionally authorized these 
projects individually and then appropriated funding to these 
three separate lines individually as well.
    With growing needs and diminishing resources, it is 
absolutely critical that we break down these silos between 
these business lines to more formally and strategically connect 
navigation and flood mitigation and habitation restoration 
projects, as well as break down the divisions between different 
levels of government. We recommend for the committee to 
consider the formal adoption of an approach called regional 
sediment management. Most States along the east coast have 
multiple projects going on in the same region. You might have 
an inlet and a harbor that needs to be dredged, a protective 
beach or dune system that needs additional nourishment work, an 
adjacent salt marsh for wildlife habitat that is starved of 
sediment and that is drowning.
    Each of these elements acts as a system with the sand, silt 
and sediment moving from one area into another based on natural 
processes. Under current policies and practices, and the stove-
piped funding, the Corps could receive separate funding to 
maintain the channel, to nourish the beach or restore the 
coastal wetland, but these projects would each be managed 
separately.
    Now, not only would a systems-based approach improve the 
management of each of these projects, but it would lower the 
price tag significantly. Individually, for example, these 
projects might cost $5 million each for a small State like 
Delaware and maybe $15 million total if you did all three 
projects. But collectively, if you did them together, you might 
be able to safe half that amount of money by just avoiding the 
mobilization costs for dredging alone.
    The Corps has already implemented some of these projects in 
other places. But too often, the least-cost mandate that they 
have prevents this type of efficiency, unless the authorization 
and the appropriations for multiple projects happen to align 
perfectly, which rarely happens.
    Too often, clean and safe dredged material is treated like 
a waste byproduct and is shipped overboard or sequestered into 
a contained disposal facility. We really need to adopt a 
systems-based approach that treats this clean sediment like the 
valuable resource that it is, and then use it where it is 
absolutely most valuable.
    With a few changes in Corps authorization, we believe it is 
possible to accomplish exactly this and save millions of 
dollars. We are extremely grateful to Senator Carper for his 
efforts in this area, and we encourage the committee to work 
with him to improve regional sediment management practices. We 
respectfully recommend five things. One, provide the authority 
to prioritize regional sediment management projects within 
WRDA, including recognizing and rewarding projects that have 
these multiple benefits that cross business lines.
    Second, formally recognize the link between storm damage 
mitigation projects, environmental enhancement projects and 
navigation projects, and the value of sediment in completing 
all three. Third, continue making progress toward modernizing 
the Corps' approach to fulfilling their mission, and by 
encouraging systems management approaches rather than the 
current project by project, line by line approach.
    Fourth, expand the definition of the least-cost mandate for 
navigation projects to include a full benefit analysis for 
regional sediment management projects, to provide a true and 
clear picture of what is gained by the Corps' work. And fifth, 
provide greater discretion to the Secretary to expand the 
boundaries of authorized projects if greater cost efficiencies 
are possible.
    We are extremely grateful for the tireless work of this 
committee to improve the resiliency of our coastal assets and 
we look forward to working with you as you consider WRDA 
reauthorization in the year ahead. Thank you very much.
    [The prepared statement of Mr. O'Mara follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
    
        
    Senator Vitter. Thank you very much, Collin. I am 
particularly glad you are here, so that Garret now realizes 
that he is old.
    [Laughter.]
    Senator Vitter. Garret Graves.

   STATEMENT OF GARRET GRAVES, CHAIR, COASTAL PROTECTION AND 
               RESTORATION AUTHORITY OF LOUISIANA

    Mr. Graves. Thank you, Senator, I appreciate that.
    Senator, I want to ask if a corrected version of my 
testimony could be submitted for the record.
    Senator Vitter. Absolutely.
    Mr. Graves. Senator, I am Garret Graves with the Coastal 
Protection and Restoration Authority of Louisiana. I want to 
thank you for the opportunity to be here today.
    I want to commend the committee, as other folks have said, 
for working in a bipartisan manner on a number of important 
issues, including vegetation policy, levee safety, 902 limits 
and of course, crediting. But also I want to ask you to take a 
step back and remember the critical role that the WRDA bill and 
natural Water resources play in our day to day lives.
    Whether it is the wetlands and ecological productivity, 
coastal Louisiana being one of the most productive estuaries on 
the North American continent, whether it is the buffer role 
that it plays. The Senator was here from Arkansas earlier. 
Louisiana is the buffer for Arkansas in regard to hurricane 
storm surge. And our buffer is those wetlands. And those 
wetland are being lost at an extraordinary rate.
    In fact, over the last several decades, we have lost 
approximately 1,900 square miles of those wetlands, which is 
equivalent to Senator Whitehouse's entire State, and virtually 
the land area of the State of Delaware, with few efforts by the 
Federal Government to actually restore those wetlands. And of 
course, the seafood productivity associated with it, which 
makes Louisiana the top producer of commercial seafood in the 
continental United States.
    On the navigation side, it is crystal clear that the most 
efficient means of transportation from an ecological or an 
economic perspective is maritime shipping. The Mississippi 
River is America's commerce superhighway. It provides maritime 
commerce for 31 States, and again, the most efficient means of 
transportation.
    On the flood control side, it is absolutely fundamental, 
things like roads, hospitals, schools are very, very important. 
But when you are trapped in your attic and your house is 
underwater, those things become a lower priority. So it is 
absolutely fundamental that flood control be prioritized.
    Senator, the current project process for water resources, 
by our estimation, but by the time you do a study, have it 
authorized, you get new start funding, you have your 
reconnaissance, your feasibility, your chief support, your 
second authorization, and then your new start construction 
funding. Our estimate is that that process takes approximately 
40 years from conception to completion of a project.
    In Louisiana, with the rate of land loss we are 
experiencing, with the vulnerability of many of our 
communities, as we recently saw in the northeast with Hurricane 
Sandy, our communities don't have that kind of time. They don't 
have 40 years to be protected and to have that type of 
fundamental importance.
    In Louisiana, we have two projects that are indicative of 
that process. One of them is Morganza to the Gulf, that you 
noted. We have been studying that project for 21 years, have 
spent $72 million without putting a shovel in the ground. In 
this era of budget challenges, I don't know how behavior like 
that can be allowed to continue.
    In regard to the Louisiana Coastal Area program, since 
about 1995 or 1996, the Corps of Engineers has spent $100 
million without building an acre of wetlands. I will say it 
again. We are losing up to 20, 25 square miles of wetlands per 
year. Much of that, the majority of that loss is the result of 
Corps of Engineers actions.
    As you noted earlier with mitigation policies, if that were 
a private citizen, if it were the State of Louisiana 
government, they would be required to mitigate for those 
actions. The Corps is taking little to no action.
    In addition, as Secretary O'Mara noted, the inflexibility 
or the rigidness associated with these Corps projects is very 
challenging. It actually prevents adaptive management and makes 
us in many cases implement lower efficacy projects because of 
the need to go back through the post-authorization change 
process to come back and wait for another WRDA bill, we give up 
and we say, look, we are just going to go implement a less 
efficient project. It is backward, and it is not how any other 
project process in the Federal Government is done.
    If this process is so sacrosanct, if it makes so much 
sense, if it is perfect, then let's use it for everything else. 
And I assure you that the Federal Government would be shut down 
very quickly if that were to occur.
    Today in Louisiana we have areas that are vulnerable, just 
as vulnerable as they were before Hurricane Katrina. We are 
losing approximately a football field of wetlands every hour in 
our State. The Corps of Engineers is having an extraordinary 
challenge maintaining navigation channels in Louisiana, 
including the Mississippi River, which is the most important 
navigation channel in this Nation in regard to the volume of 
hundreds and millions, billions of dollars in global commerce 
that traverses that river.
    We strongly support efforts by you, Senator, and other 
members of the committee, to dedicate the harbor maintenance 
tax to ensure that those channels can be maintained and to also 
use those funds for beneficial use dredged materials, as 
Secretary O'Mara noted.
    Senator, one of the other issues that I think is important 
to address is the accountability that you noted with the Corps 
of Engineers. In many Federal laws, including WRDA 2007, the 
Corps was directed, they shall perform certain actions by 
certain dates. The State of Louisiana, in many cases, depended 
upon those schedules. The Corps has had absolutely no 
accountability. In fact, since Hurricane Katrina, they have 
missed every single statutory deadline in WRDA or in 
appropriations laws, which total somewhere around 15 or 17 
different deadlines, again, with no accountability, therefore 
disrupting our schedules and our budgets in the State of 
Louisiana.
    As Mr. Turner noted, the role of partnership of the non-
Federal sponsors is often relegated to a bystander. Yet we are 
responsible for operations, maintenance, repair and 
rehabilitation and replacement of many of these projects, in 
fact, most of these projects. And we are forced to pay, or we 
do pay a most share on the construction of the projects. But 
again, largely relegated to a bystander status.
    The last comment I want to make, Senator, this current 
project process and the tens of billions of dollars in backlogs 
in Corps projects, it leads folks in our States to a false 
assumption that these projects are going to be built. People 
have to make decisions on their homes, on their businesses, on 
their families. If there is a belief that the Morganza to the 
Gulf hurricane protection project is going to be built, people 
make decisions based upon that. And this whole situation of 
being in limbo I believe is even more dangerous than just 
telling folks, you are not getting a project. And this entire 
process needs to be expedited.
    As you have said many times, Senator, the dollars are going 
to be spent, and they can be spent proactively with a much 
lower rate, or they can be spent exponentially more dollars 
coming in after the hurricanes and responding to those 
disasters in 2005, $150 billion and so far with Hurricane Sandy 
an estimated $60 billion.
    Thank you very much for the opportunity to be here today. I 
would be happy to answer any questions.
    [The prepared statement of Mr. Graves follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Vitter. Thank you, Garret.
    I have a few questions and then we will wrap up. Garret, 
you correctly noted that the normal Corps project authorization 
and construction process is the most cumbersome, the most 
multi-layered of any model I know of, Federal Government, any 
other type of entity.
    To all of you, what would be an alternative model, from 
government or from any other appropriate sector, to use 
instead? That is No. 1. No. 2, specifically, react to this 
thought because Senator Bill Nelson and I have been working on 
it, which is, for appropriate Corps projects, to allow the 
State and/or local sponsor, non-Federal sponsor, to be the lead 
agency, to be the project manager, if you will, rather than the 
Corps, much as we do almost always with highway projects. We 
have a Federal Highway Administration. It is not the lead 
agency or the project manager for Federal highway projects. The 
State DOT or a local entity is. If anybody wants to respond.
    Mr. Graves. Senator, I would just quickly say that I think 
the Federal Highway Administration model that you noted, and in 
fact, this committee has jurisdiction over, is a perfect 
example of an alternative approach that yields much greater 
efficiencies in terms of schedules and dollars. I have reviewed 
draft legislation and I think the approach that you and Senator 
Nelson are working on, it is extraordinary, it is exactly what 
needs to happen and will result in saving lives and saving 
millions of dollars for this Nation.
    I also want to make note, Senator, even alternative Corps 
project implementation processes, like currently being put in 
place in Hurricane Sandy, and also after Hurricane Katrina, the 
Corps of Engineers actually did a pretty good job under the 
alternative process. But the current one is clearly broken.
    Senator Vitter. Anyone else?
    Mr. O'Mara. I would like to agree with my colleague, 
because I think Mr. Graves is exactly right. Some existing 
authorities that we have been able to relax a little bit after 
some of these storms to get projects on the ground quickly have 
worked. We have seen some good projects come out of it. This 
process that I am talking about, this regional sediment 
management idea, we have been working very closely with our 
shoreline administrator, Tony Pratt, who is sitting behind me. 
This idea of trying to look at the region and identifying 
multiple needed at the same time, run the projects together and 
move toward more of a design-build type of approach like we 
used for all kinds of local projects, can make a lot of sense.
    The analysis is extremely important, but if it leads to 
paralysis and avoids putting a project on the ground, as Mr. 
Graves said, that is actually impacting the local residents' 
ability to make decisions.
    Then the idea of the lead agency, it is an interesting 
idea. We are finding ourselves more and more having to take 
that kind of responsibility for navigation projects as 
secondary waterways in Delaware that have traditionally been 
under the Corps' auspices, there is no funding for those 
projects, but yet there are still local needs. So I think there 
is a conversation to be had there on the transportation ideas 
are interesting. I think we do have the ability to deliver 
projects very quickly at the local level, if we had some 
Federal support, Federal permits, things like that. So I 
appreciate the suggestions.
    Senator Vitter. Great. Thank you. Anyone else?
    Mr. Johnson. I would just like to add, over the years, the 
Corps has put in so many checks and balances in their process 
that they have kind of added up and I believe added to the time 
and process. We have reached a point where we are making all of 
our decisions based on a benefit cost economic decision instead 
of also including other factors that need to be involved.
    I think if we were to reduce the amount of time, just 
nailing down all the little details on the benefit cost ratio 
and include other things like loss of life, other factors that 
are very important in there, that we should be able to reduce 
that time in the process and reach conclusions quicker, then 
make those decisions and move forward.
    Senator Vitter. Great. Bob.
    Mr. Turner. I would like to also strongly agree with the 
others that have spoken about this. I really like the idea of 
using that transportation model for a number of reasons, one of 
which is it brings a lot of focus to the flood control work 
projects. In particular it makes it clear that they are part of 
our infrastructure and perhaps would give us a better way to 
dealing with the long-term operations and maintenance of those 
types of things.
    Senator Vitter. Great. Several of you also talked about 
wetlands mitigation, huge challenge for us in Louisiana, 
particularly with this new Modified Charleston Method. Do you 
think it is appropriate that when you all are building a flood 
control or wetlands protection project, you don't get any 
credit for that, you essentially have exactly the same burden 
as, say, a private developer, paving over and creating a huge 
new parking lot for a shopping center? Do you think you should 
get any credit for the fact that your project is protecting 
against flooding and preserving valuable wetlands, which 
clearly just won't be there but for doing this work?
    Mr. Turner. I would like to address that. We have 
jurisdictional authority over several levee districts that are 
in the coastal area and border on the coast. Some of those 
districts are losing wetlands at an alarming rate, which will 
impact the new flood protection system that we have in the New 
Orleans area and is going to, over time, as those wetlands 
degrade, the level of protection that they are providing today 
will not be there.
    So I think we all recognize that we have to do something to 
protect Louisiana's coast. But we also have to protect the 
people that live there. I think it is a matter of setting 
priorities, when we look at the tradeoffs between building 
flood control projects and dealing with some of these issues of 
coastal protection and restoration.
    I think, and I have seen things that have been done that I 
believe will work to accomplish both, where we can actually 
build flood control projects and, at the same time, protect 
those really vulnerable areas of our coast that, without a 
doubt, in 10 years will not be here unless we do something to 
provide some type of barrier against the storms that come in on 
a regular basis, and just the normal everyday wave action.
    So there is feeling among many of the coastal levee 
districts that not enough emphasis is given to the value of 
food control projects in that regard, as far as being able to 
protect wetlands. I think that is one of the things that the 
Corps should take a look at when they go back and look at the 
Modified Charleston Method, to make sure they can capture that 
when they determine what exactly needs to be done in order to 
mitigate for those unavoidable impacts.
    Senator Vitter. Anybody else?
    Mr. Graves. Senator, I think that Secretary O'Mara noted 
the role of the various types of projects. I think that 
wetlands certainly play an important role and shouldn't be 
discounted. But at the same time, it is fascinating to see how 
important wetlands are to the Corps of Engineers in their 
regulatory program, yet on their operations and maintenance 
they cause literally a dozen square miles per year in loss and 
they don't do anything about it. So the hypocrisy here is 
rather extraordinary.
    I do think that there are better ways to approach this, 
perhaps more holistically. There are a number of ecosystem 
restoration projects that are designed to restore wetlands and 
I think that perhaps looking at more of a polling approach of 
resources could be a much more efficient model, while resulting 
in lower costs to the Federal Government and greater overall 
ecological productivity.
    Senator Vitter. To follow up on that, shouldn't there be 
some way, at least for coastal parishes or counties, to be able 
to put mitigation requirements on the coast, to be able to fund 
those projects you are describing, which at least in the case 
of Louisiana are keyed up and ready to go? Unfortunately, under 
the present system, those two worlds hardly ever meet. There 
are enormous mitigation requirements for everything you do in 
South Louisiana.
    But rarely, if ever, does it have any impact on the leading 
true wetland crisis in Louisiana, which is a vanishing 
coastline. There must be a way to marry those two.
    Mr. Garret. Again, it is great to have a good prop here, 
Secretary O'Mara, who by the way confided in me that he has had 
multiple cosmetic surgeries and he is really 82.
    [Laughter.]
    Mr. Garret. He talked about breaking down these stove pipes 
between the various programs. This is a perfect example. We 
actually have situations where the Corps disposes of sediment 
through their dredging program and then demobilizes the dredge. 
We hire a second dredging company to come pick up and move the 
exact same sediment for restoration projects.
    Mr. O'Mara. We completely echo the same comment. We have 
even had the same experience that Louisiana has had up until 
fairly recently. Obviously we have had subsidence issues and 
erosion and more intense coastal storms. But I think more and 
more local residents are seeing the value of these ecological 
restoration projects as that front line of defense.
    There are some studies out there that if we just have a 
half-meter of sea level rise over the next century, because 
there is 11 percent of the land mass in the State of Delaware. 
So this idea of having additional sediment coming into these 
systems, and Garret is exactly right, there are these cases 
where we are trying to restore coastal impoundments, put 
additional sediment in, and it is the same sediment that right 
now would go to a disposal facility and have no value at all, 
treated like a landfill, basically.
    So if there was additional authority, a lot of times the 
cost, the additional cost to have that sediment used to protect 
the wetland might be maybe 10 percent of the original project 
cost. But because it doesn't meet that least-cost alternative, 
it will either go overboard or into the containment facilities. 
So if there is any flexibility provided through WRDA to let 
folks make that academic argument, because you can avoid the 
entire other project, which needs mobilization and permits and 
everything else. We would save millions of dollars, easily, 
every year, in pretty much every State that has this kind of 
work done.
    Senator Vitter. Great.
    I want to thank all of you again, not just for your 
testimony, but for your ongoing work. We will depend on your 
input and insights as we continue to put together the next 
WRDA.
    Thank you very, very much. With that, this hearing is 
adjourned.
    [Whereupon, at 1:04 p.m., the committee was adjourned.]
    [An additional statement submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
           
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
